<html>
<title> - H.R. 1568: THE VETERANS ENTREPRENEURSHIP AND SMALL BUSINESS DEVELOPMENT ACT OF 1999</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
H.R. 1568: THE VETERANS ENTREPRENEURSHIP AND SMALL BUSINESS DEVELOPMENT 
                              ACT OF 1999

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                     WASHINGTON, DC, JUNE 23, 1999

                               __________

                           Serial No. 106-20

                               __________

         Printed for the use of the Committee on Small Business



                     U.S. GOVERNMENT PRINTING OFFICE
59-748                       WASHINGTON : 1999




                      COMMITTEE ON SMALL BUSINESS

                  JAMES M. TALENT, Missouri, Chairman
LARRY COMBEST, Texas                 NYDIA M. VELAZQUEZ, New York
JOEL HEFLEY, Colorado                JUANITA MILLENDER-McDONALD, 
DONALD A. MANZULLO, Illinois             California
ROSCOE G. BARTLETT, Maryland         DANNY K. DAVIS, Illinois
FRANK A. LoBIONDO, New Jersey        CAROLYN McCARTHY, New York
SUE W. KELLY, New York               BILL PASCRELL, New Jersey
STEVEN J. CHABOT, Ohio               RUBEN HINOJOSA, Texas
PHIL ENGLISH, Pennsylvania           DONNA M. CHRISTIAN-CHRISTENSEN, 
DAVID M. McINTOSH, Indiana               Virgin Islands
RICK HILL, Montana                   ROBERT A. BRADY, Pennsylvania
JOSEPH R. PITTS, Pennsylvania        TOM UDALL, New Mexico
MICHAEL P. FORBES, New York          DENNIS MOORE, Kansas
JOHN E. SWEENEY, New York            STEPHANIE TUBBS JONES, Ohio
PATRICK J. TOOMEY, Pennsylvania      CHARLES A. GONZALEZ, Texas
JIM DeMINT, South Carolina           DAVID D. PHELPS, Illinois
EDWARD PEASE, Indiana                GRACE F. NAPOLITANO, California
JOHN THUNE, South Dakota             BRIAN BAIRD, Washington
MARY BONO, California                MARK UDALL, Colorado
                                     SHELLEY BERKLEY, Nevada
                     Harry Katrichis, Chief Counsel
                  Michael Day, Minority Staff Director




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 23, 1999....................................     1

                               Witnesses

Myers, Betsy, Associate Deputy Administrator, Entrepreneurial 
  Development, U.S. Small Business Administration................     3
Baskerville, Anthony L., Deputy National Service Director for 
  Employment, Disabled American Veterans.........................    16
Callaway, Valerie K., Sergeant First Class, disabled retired 
  veteran........................................................    17
Lopez, John K., Association for Service Disabled Veterans........    19
Naschinski, Emil W., Assistant Director, National Economic 
  Commission, the American Legion................................    20
Elmore, William D., Data Force Associates........................    30
Foster, Charles, Group President, SBC Communications, Inc........    31
White, Stephen H., President, White & Company....................    33

                                Appendix

Opening statements:
    Talent, Hon. James M.........................................    41
    Davis, Hon. Danny K..........................................    45
    Christian-Christensen, Hon. Donna M..........................    49
    McCarthy, Hon. Carolyn.......................................    50
    LoBiondo, Hon. Frank A.......................................    51
Prepared statements:
    Myers, Betsy.................................................    52
    Baskerville, Anthony L.......................................    61
    Callaway, Valerie K..........................................    65
    Lopez, John K................................................    68
    Naschinski, Emil W...........................................    74
    Elmore, William D............................................    80
    Foster, Charles..............................................    86
    White, Stephen H.............................................    93
Additional material:
    Legislative Text of H.R. 1568, ``The Veterans 
      Entrepreneurship and Small Business Development Act of 
      1999''.....................................................    97
    Letter from James N. Magill, Director, National Veterans 
      Employment, Veterans of Foreign Wars of the United States, 
      to Chairman Talent.........................................   134
    Statement of Michael P. Cline, Master Sergeant (Ret.), 
      Executive Director, Enlisted Association of the National 
      Guard of the United States.................................   135
    Statement of Larry D. Rhea, Deputy Director of Legislative 
      Affairs, Non Commissioned Officers Association of the 
      United States of America...................................   143
    Statement of Vietnam Veterans of America.....................   153
    Report of the SBA Veterans Affairs Task Force for 
      Entrepreneurship: ``Leading the Way: What Veterans Need 
      from the SBA''.............................................   165
    SBA News Release, July 2, 1998: ``SBA Forms Task Force to 
      Address Concerns of Veteran-Owned Businesses''.............   184
    SBA News Release, November 9, 1998: ``Veterans' 
      Entrepreneurial Task Force Presents SBA with 
      Recommendations for Improved Services to Veterans''........   186
    Informational Flyer about the Veterans Entrepreneurship and 
      Small Business Development Act of 1999.....................   188


H.R. 1568: THE VETERANS ENTREPRENEURSHIP AND SMALL BUSINESS DEVELOPMENT 
                              ACT OF 1999

                              ----------                              


                        WEDNESDAY, JUNE 23, 1999

                          House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 9:30 a.m., in Room 
2360, Rayburn House Office Building, Hon. Jim Talent (chair of 
the committee) presiding.
    Chairman Talent. Good morning. Today the Committee on Small 
Business will examine the Veterans Entrepreneurship and Small 
Business Development Act of 1999. This bill implements many 
recommendations suggested by the SBA's Veterans Affairs Task 
Force for Entrepreneurship. In July, Administer Alvarez 
established the SBA Veterans Affairs Task Force for 
Entrepreneurship. The task force included representatives from 
the major veterans service organizations and veterans advocacy 
groups, veteran owned businesses, SBA management board members, 
and SBA research partners. Emil Naschinski, Tony Baskerville, 
Bill Elmore, John Lopez, and Steve White served on the task 
force.
    The bill we will examine today, the Veterans 
Entrepreneurship and Small Business Development Act of 1999, 
implements the SBA veterans affairs task force high priority 
recommendations. First, H.R. 1568 makes veterans eligible for 
funds under the microloan program. This enables veterans to 
access capital markets currently available to women, low-income 
minority entrepreneurs, and other business owners possessing 
the capability to operate successful business concerns.
    Second, H.R. 1568 amends the Small Business Development Act 
to require the Secretary of Veterans Affairs, the Administrator 
of the Small Business Administration, and the Small Business 
Development Center Association to train all veterans, including 
disabled veterans, in business training, management assistance, 
procurement opportunities, and other business areas.
    Third, H.R. 1568 creates the National Veterans Business 
Development Corporation. This corporation will coordinate 
private and public resources from Federal organizations, the 
Small Business Administration and the Department of Veterans 
Affairs to establish and maintain a network of information and 
assistance centers for use by the veterans and the public. H.R. 
1568 requires the National Veterans Business Development 
Corporation to become self-sustaining by eliminating the 
corporation's Federal funding, which is minimal anyway, after 4 
years.
    Finally, H.R. 1568 affords veteran-owned small businesses 
an opportunity to compete on the same level with small business 
concerns owned and controlled by socially and economically 
disadvantaged individuals, including opportunities for 
procurement contracts. This committee, through H.R. 1568, is 
addressing those concerns that veterans themselves identified 
as most pressing.
    We have two panels of witnesses who have agreed to appear 
before the committee today. Before we turn to the first panel 
of witnesses, I want to recognize the distinguished Ranking 
Member for any statement she may wish to make.
    [Mr. Talent's statement may be found in the appendix.]
    Ms. Velazquez. Good morning and thank you, Mr. Chairman for 
holding today's hearing on H.R. 1568, the Veterans 
Entrepreneurship and Small Business Development Act of 1999. I 
would like to commend you for your strong commitment to 
veterans. I know that they join me in thanking you for all of 
your work on their behalf. Countless men and women have fought 
for our country and its ideals as members of our armed 
services. Often upon their return to civilian life, veterans 
have encountered barriers to starting or expanding a business. 
In fact, one of the regional goals of the Small Business 
Administration was to help our veterans make the transition to 
the civilian economy and to overcome these barriers.
    Currently, there are 5.5 million businesses owned or 
operated by veterans. Additionally, there are 100,000 service-
disabled veterans within the business community. Although there 
are a number of programs of the SBA to provide assistance, many 
of these are not specifically targeted to veterans. Today's 
legislation, H.R. 1568, seeks to remedy some of the 
inequalities that our service men and women face upon their 
return to civilian life.
    I strongly support the intent of this legislation because I 
believe that those men and women who have served this country 
in uniform deserve the opportunity to succeed. This is 
especially true of our service-disabled veterans, all of whom 
have made a profound sacrifice for their nation. H.R. 1568 
takes a number of steps to provide greater assistance to 
veterans. First, it creates an associate Administrator for 
Veterans Business Development at SBA.
    Second, it establishes an Advisory Committee on Veterans 
Business Affair and a Veteran's Corporation. Both of these will 
help coordinate public and private resources for veterans and 
provide greater information to veteran owned businesses.
    Additionally, this legislation provides increased 
opportunity for veterans to access capital through the SBA.
    Finally, H.R. 1568 seeks greater veteran and service-
disabled veteran involvement in government subcontracting and 
procurement goals. A 5 percent procurement target is 
established for service-disabled veterans. Although I strongly 
support reaching out to the disabled communities, especially 
those injured in service to their country, the committee needs 
to look at how this change will affect the overall 23 percent 
procurement goal for small business contracting.
    Additionally, it is critical that we examine the impact 
that this legislation will have on other programs designed to 
provide entrepreneurial assistance. Specifically, the Committee 
needs to look at the cost of this program and where the money 
needed to pay for it will come from, either through additional 
appropriations or budget cuts elsewhere at SBA. It's crucial 
that while we help our nation's veterans, that this is done in 
a balanced and reasonable manner. We all support reaching out 
to promote economic opportunity, and I look forward to 
assisting the veteran community.
    Again, I would like to commend Mr. Talent for all of his 
work on behalf of veterans throughout our country.
    Once again, Mr. Chairman, thank you for holding this 
hearing, and I look forward to hearing today's testimony.
    Chairman Talent. I thank the gentlelady and also for her 
assistance and advocacy on behalf of veterans. Let's get right 
to the first panel. We have two panels today and then a markup.
    Our first witness, and we are glad to have her as always, 
is Betsy Myers, the Associate Administrator for Entrepreneurial 
Development and Director of the Small Business Welfare to Work 
of the Small Business Administration. Ms. Myers, I understand 
that you are on a tight time frame, you have to leave in about 
half an hour. What I am going to do then is--the Ranking Member 
and I have discussed it--as you give your testimony, we will be 
kind of informal here. If Members have a question or two for 
Ms. Myers, go ahead and just jump in and ask.
    If it doesn't get to be too much of a free-for-all, we will 
just try to do it that way with your testimony

       STATEMENT OF BETSY MYERS, ASSOCIATE ADMINISTRATOR 
  ENTREPRENEURIAL DEVELOPMENT AND DIRECTOR OF SMALL BUSINESS 
         WELFARE TO WORK, SMALL BUSINESS ADMINISTRATION

    Ms. Myers. Thank you, Mr. Chairman. Thank you very much for 
the opportunity to be here today to comment on H.R. 1568, the 
Veterans Entrepreneurship and Small Business Development Act.
    First, I want to say that it has been a privilege to 
oversee the veteran's office, as I grew up with a father who 
served 12 years in the Navy and did two tours of Vietnam. So as 
a little girl, I experienced what he went through. He lost many 
friends in the war and it was very much a part of my 
upbringing. So when I came to SBA 2 years ago to run the 
division, it was not my first experience with the vets 
community.
    I will tell you that my history has been in the women's 
constituency. I have been impressed by the diligence of the 
veteran's community and I applaud them for their work in trying 
to move these issues forward. I always thought the women's 
constituency was the toughest, but I think that the vets give 
them a run for their money. The SBA has been very supportive of 
the efforts to assist vets and to increase their opportunities 
for small business. The SBA believes strongly in the importance 
of supporting America's vets and we have strived to accomplish 
much in helping veterans achieve success as entrepreneurs.
    Last summer, as the Chairman said, we convened a task force 
for entrepreneurship. It was the first time that the SBA had 
brought in veterans advocates in 15 years. Through that task 
force we came up with a series of recommendations, many of 
which you see in the legislation today. We also have contracted 
for a study of small businesses owned by services-disabled 
vets, due by the end of this year, which will give us 
information on Federal contracting and what is available for 
vets throughout the government, information that is much needed 
and we don't have.
    We have also been developing the Veteran's Business 
Outreach Grant program and will fund four grants this year. We 
are also implementing the SBA OVA web site where vets can go to 
get information that they need to start their businesses and 
get information on available resources in their backyard.
    We are also developing a number of online business courses, 
available through our Small Business Classroom. For those of 
you who don't know, we have developed a classroom that 
entrepreneurs can go to any time of the day or night and access 
classes on the Internet. We are very proud of that and have a 
series of classes from ``Are You Y2K Okay'' to ``How to Write a 
Business Plan.'' We are developing a classroom for veterans.
    We believe that there is significant potential to assist 
large numbers of vets with quality training information through 
our distance learning programs. We can also serve disabled vets 
who might not be able to get to our centers through various 
modes of transportation. Our veteran's office focuses primarily 
on the advocacy aspect of the veteran entrepreneur and helping 
them to learn what is available through our 70 district 
offices, SBDCs and other programs.
    The total veteran population is approximately 24 million, 
and 4.5 percent of all businesses are owned by veterans. In 
FY98, 13 percent of all SBA loans went to veteran-owned small 
businesses. Of those reporting their veteran status, 65,000 of 
the clients that received counseling at SBA were to veterans. 
In the 8(a) program, about 12 percent of all participating 
firms were vets, which accounted for about 721 million dollars 
of contracts.
    We applaud the intent of H.R. 1568, and we believe strongly 
that we should help our vets. But we also feel that the bill 
duplicates some of what SBA is already doing and there are 
certain provisions with which we have concerns.
    Section 201 would create an Office of Veterans Business 
Development reporting directly to the Administrator and change 
the status from Assistant Administrator to Associate 
Administrator. I think that we have to look at the issue of 
competing interests. Our Administrator developed the Office of 
Entrepreneurial Development to house all of the entrepreneurial 
development issues, as well as veterans, Native Americans, and 
women.
    Some of the proposals in the plan would create new 
entities. We already have an office that is devoted to vets. 
Why don't we take a look at how that office can do a better 
job? We don't believe every constituency can report to the 
Administrator. The Office of Entrepreneurial Development is set 
up in a structure that we think works.
    I think that the issue is that the veterans community wants 
a person that has more influence in the agency. What I believe 
is that the person that runs that office must have the deepest 
passionate feeling for advocates and be a true believer in what 
they are trying to do, just as the head of our Women's Office 
has always been. That's critical. I am not sure that we need 
to, through legislation, have that person reporting directly to 
the Administrator. So the second issue was creating a national 
veterans----
    Chairman Talent. Betsy, let me just say what our concerns 
are, and what is generated out of this bill, it comes from the 
vet's community and just from the record.
    This year, for example, the agency cut its request for 
veterans. It has decreased their funding for the veterans 
affairs programs, decreasing from $1.4 million in 1988 to 
$340,000 in 1997. We thought that if we upped the status of 
this officer in charge of veterans programs it would make it 
easier to advocate within the agency for the budget. It is not 
really the subject of this hearing but there have been some 
substantial concerns about whether veterans programs have 
received enough attention within the agency. Do you have any 
comment on that?
    Ms. Myers. Well, historically the problem has been not that 
the Veterans Office has not received attention. It is more of 
an issue of funding and access to resources, and in a time of 
declining budgets it is a huge problem. The budgets get 
decreased, there are not enough people. I think also that 
sometimes when you have an office that is underfunded across 
the board over years of time we set up expectations for our 
constituencies. It is like we overpromise and underdeliver.
    So there is a constant level of frustration. How do we deal 
with that in times of decreasing budgets, resources, and FTEs, 
with a lot of constituencies all having special interests? What 
Aida tried to do when she created the Office of Entrepreneurial 
Development was try to house all of the constituencies in one 
place, to try to give them greater representation by separating 
them from Capital Access. I think that has made a big 
difference.
    Mr. Bartlett. Thank you, Mr. Chairman. I have been a strong 
proponent of women's issues and small business, and we need to 
continue that focus and really to increase it. But I need to 
say that the veterans are a very special constituency for two 
reasons.
    One, we owe them. And secondly, we are having major 
problems today in recruitment. One of the reasons is that when 
our young people look at the way that we treat our veterans, 
they are making decisions as to whether or not they are going 
to commit themselves to this type of public service.
    So I think that the focus on veterans in this bill is 
totally appropriate for those two reasons, we owe them and just 
as important, if we don't show an increased concern for our 
veterans, we are going to have increasing problems in 
recruitment. So I support this aspect of the legislation from a 
national security viewpoint. Thank you very much, Mr. Chairman.
    Chairman Talent. What we are doing, the gentleman arrived a 
little late. Ms. Myers has to leave at 10:15. I am allowing 
people to jump in with limits. If it gets to be a big free-for-
all, we will go back to the regular order. Otherwise, we are 
not going to be able to ask her questions. I am happy to 
recognize the gentleman.
    Mr. Forbes. I thank the gentleman. Let me just say that I 
agree wholeheartedly with my friend from Maryland. I think the 
interests of veterans need to be paramount when dealing with 
particularly the establishment of a small business and all of 
the rest of that.
    I would have to tell you that honestly I have some 
reservations, Mr. Chairman, in all due respect. Having watched 
the SBA up close, I do think there is certainly a great 
sensitivity to veterans. I am concerned that by creating some 
of these changes that we may do in good faith effort, frankly, 
to raise the visibility of assistance, we may make it more 
difficult, ironically, to do integration with the rest of SBA 
on some programs. I think that is part of the problem here.
    We have got so many individual offices who are clearly 
established with the idea of raising assistance levels to those 
constituencies. I am concerned that if we get to a point where 
we have just got to make sure that we are putting the right 
name on the door but not getting the kind of integration that 
we need, clearly we want to make sure that veterans have access 
to the 7(a) lending program.
    I appreciate Ms. Myers' reference, for example, to the 
great work of SCORE and working with veterans. But I am 
concerned again about integration. To the extent that you could 
assure this Committee that there really is an erstwhile effort 
to get veterans integrated into the various programs of the 
agency. I have seen too often where well meaning district 
directors and people who, frankly--this I happen to agree with 
the reservations of the Committee and some in the Congress 
have, that sometimes we find that veterans feel like they are 
getting shortchanged.
    I understand where that comes from because it is generally, 
I think, where you have got a district director with a limited 
staff. They have got one person who is wearing the hat of 
several different positions. That is a big problem. You have 
got a veterans representative in a local office who is also 
working with women's business ownership, who may be having a 
coordinated relationship with SCORE. Maybe doing some 
procurement work. That I think is really part of the reason, 
unfortunately, why we are finding that veterans are getting the 
short end of the stick because one person in that district or 
local office is wearing three or four hats. That is not an 
exaggeration. I would hope that as we move forward with this 
well-meaning legislation, I think that it is well meaning, and 
I hope it gets to some of the concerns that we all have about 
better serving veterans, that, in fact, we do look at that 
problem and maybe, Ms. Myers, if you could address some of the 
concerns expressed rightly by the Chairman on funding, for 
example.
    If we are seeing that the administration is asking for less 
money for this valuable veterans program, how do we address the 
concern that you have got frankly an FTE shortage, if you will. 
I am not necessarily advocating that we plus up employees all 
over the country, but I am concerned that maybe more of the 
problem rests with the fact that you have got competing 
responsibilities and limited numbers of people handling those 
responsibilities at the local level. If you could address that.
    Ms. Myers. Your concern is absolutely right, that the 
people are stretched in the district offices. I think it goes 
back to the fact that we need to do a better job of marketing 
what we already have. I think a lot of business owners, vets, 
women, minorities, general population, do not know about all of 
the resources that are in their backyard. They don't know that 
SBDC, SCORE, One Stop Capital Shops, are there to help them. I 
think a fundamental problem is that we need to do a better job 
of marketing them.
    Currently, already in our SCORE program and SBDC programs, 
there are initiatives to make sure that vets are included in 
the counseling. For example, in SCORE we assisted over 22,000 
veterans last year. I think part of the problem is that we are 
not getting the word out about the numbers that we are doing.
    Mr. Forbes. One quick question, if I may, and then I will 
thank you, Mr. Chairman, for the Committee's patience. Is there 
a coordinated effort at the agency now with veterans, if 
somebody walks into either a local SBA office or a small 
business development center, is there an effort to plug them in 
to procurement, if that is their interest, to the 7(a) Loan 
Program or the 8(a) program, technical assistance, or all of 
the rest of the valuable programs being offered at SBA? Is 
there an effort to move them along or just an effort to kind of 
deal with the veteran as a veteran with, frankly, that one 
person with limited, frankly, programmatic expertise. One 
person can't have all of that expertise.
    Is there a way to move them through the menu of programs at 
SBA?
    Ms. Myers. Absolutely. We are trying through our district 
offices. There is a person at each district office, even though 
many of them have shared FTEs. But the good news is that this 
Administrator, through our New Markets Initiative, is targeting 
populations that are underserved, which include veterans, 
disabled veterans, disabled populations, women and minorities. 
So we are very much trying to market to vets and do a better 
job of getting the word out about the available resources.
    Mr. Forbes. Mr. Chairman, I thank you for the time and the 
patience of the Committee. I would hope that maybe, Ms. Myers, 
if you could take back, I think the Committee would benefit if 
there was some paper that the agency could send up to us that 
shows kind of how we are coordinating and we are actually 
integrating veterans who walk in cold off the street and need 
to be serviced by these programs. We could show how that 
integration actually works. It would be very helpful to me 
anyway and the other Members as well.
    Chairman Talent. I thank the gentleman and the Ranking 
Member has a question.
    Ms. Velazquez. Thank you, Mr. Chairman. Ms. Myers, in light 
of budgetary constraints there is one aspect of the legislation 
that raises some concerns to me. That is that it creates, this 
legislation creates an associate Administrator of veterans 
affairs, the veterans corporation, and the veterans advisory 
board. So doesn't it seem to you that we are creating a 
situation where redundancy will exist and where the resources 
that should be going to help veterans will be used for travel 
and/or staffing?
    Ms. Myers. I do believe that what you are saying is true. 
Sometimes I think that instead of fixing what we already have, 
we create new entities to add on top of what is already there. 
Looking at the National Veterans Business Development 
Corporation, the legislation is asking for 12 million dollars 
over 4 years. I would say if we took the same money, or a 
portion of that money, and put it to the existing Veterans 
Office, we could take advantage of an entity that is already 
working. So I think that is a huge issue in an era of declining 
budgets.
    The National Veterans Business Development Corporation 
reminds me of the National Women's Business Council of which 
Amy Millman is the executive director. Amy has done a fantastic 
job and the entity has worked. But their funding is only 
$600,000. So you might be able to do the Veterans Corporation 
for less money. The advisory committee that is proposed in the 
legislation currently exists at SBA. SBA started that in 1984, 
and we are reestablishing that. So we already have that entity, 
and don't feel it needs to be recreated.
    Ms. Velazquez. This legislation would put veterans on par 
with minorities in terms of loan decisions. There have been 
numerous studies detailing that blacks and Hispanics are less 
likely to get loans. Could you please provide this committee 
with any statistics that shows discrimination against veterans?
    Ms. Myers. One of the problems is that we don't have 
statistics on vets. It is one of the issues that really has 
been a problem for us, particularly in procurement, where we 
don't have the statistics to show how many veterans are getting 
procurement contracts.
    On the issue of the subcontracting goal, we don't know 
right now how many contracts veterans are getting, so it is 
hard to make a goal. One of the things that we absolutely favor 
is getting some better data to be able to make some of these 
decisions. In our lending programs, the vets have actually done 
pretty well. About 13 percent of our loans go to veterans. So 
that is an area where we can do better, but they have done 
pretty good in getting our loans.
    We are very much in favor of doing a better job of 
marketing what is available. I think--I can't stress that 
enough--that we have those programs that are available that 
vets can access but many of them just don't know that they are 
there. That goes also for the ability to apply for 8(a) status, 
to show that they have economic and social disadvantage. They 
have that right as other minorities groups do. Many of them who 
could show that could participate in the 8(a) program. All of 
these programs are there for them to access.
    Ms. Velazquez. Why do you think that they haven't been able 
to access it? Because of the staffing? Because you haven't done 
the right outreach to share the information with them? What is 
the problem?
    Ms. Myers. I think that oftentimes people don't know about 
the programs. It is something that we strive for. We have a 
wonderful district office system and people in the field to get 
the word out about the resources available. I think many vets 
and businesses in the country just aren't aware of the 
programs. Marketing of government programs, that is an issue 
that I think you could almost have a hearing on. Are we really 
across the board on all of the programs that help people that 
have the ability to access government programs? Do people know 
what their government does for them?
    Ms. Velazquez. Mr. Chairman, I have a last question because 
I have to leave at 10:30 for a press conference.
    Ms. Myers, currently the Federal Government procurement 
goal for small business is 23 percent. Of this 23 percent the 
off zone program has a 1.5 percent goal; the small 
disadvantaged businesses have a 5 percent goal; and women-owned 
businesses have a 5 percent goal. If we add a 5 percent goal 
for veterans without increasing the size of the pool, aren't 
all of these groups simply going to be fighting over a smaller 
and smaller amount?
    Ms. Myers. That is a tough issue that has been on the table 
for so long. Any time that another constituency group wants to 
get into those kinds of programs, it shrinks the pool. I think 
the fundamental issue that we have in the vets community is 
that we don't know, we don't have enough information to even 
know what they are getting to be able to establish a goal. I 
think that the first step is getting the information we need, 
and we are working on that.
    We fully agree that vets should be recognized on these 
issues of procurement, so we are currently working on a letter 
to Office of Federal Procurement Policy. We have been assessing 
all of the changes that are needed in how we collect 
information so that we can change the way that we do that. Our 
Administrator also is very dedicated to this and intends to 
mandate that all of our agency programs, beginning October 1, 
1999, request information from all of our clients requesting 
their veteran status and service disability status.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Mr. Gonzalez. Mr. Chairman?
    Chairman Talent. Go right ahead.
    Mr. Gonzalez. I guess this is more structural than a 
question. It appears to me that what we are doing here is 
approaching a problem. No one on this Committee doesn't want 
more attention being paid to veterans, and how we are going to 
do it is obviously the question. What I see here is basically a 
structural approach. We will set a precedent when we do that. 
It may be required and necessary. My question to you is when we 
make this kind of structural modification, should it not be 
based on need, on distinct needs, something that is unique, a 
constituency that needs to be addressed differently from other 
groups, for instance?
    There is something else that is going on. The dynamic here 
is that these are veterans and the tremendous respect and 
obligation and responsibility that we have to them. Could this 
be a time when maybe it is not just a consideration again of 
unique and very distinct needs that are so different that need 
to be addressed structurally. Should we also take into 
consideration status, in that these are veterans? You have 
heard that concern. It spills over to retention, what makes 
service in the Armed Forces attractive and how we--obviously, 
retain but how we also get people to come into the service. 
Should that be a legitimate consideration as we go into what, I 
believe, is going to be structural change in nature?
    Ms. Myers. You raise a really good point. I can't stress 
enough how important veterans are to our country and to our 
government and to our agency. We feel in this administration 
and from the head of our agency, Ms. Alvarez, they are very 
important to us.
    I guess the fundamental question comes down to do we need 
to create programs for vets when they already exist? That is 
really, I think, what it comes down to. We are already working 
on that, reaching veterans through SCORE, SBDCs and other 
programs. Do we need to then mandate that, or is it something 
that we can work closer with you and the advocates to our 
advisory committee to try to do a better job when their needs 
aren't being filled? That is how we are looking at it. Part of 
the issue is getting better statistics and more information.
    Mr. Gonzalez. Thank you. Thank you, Mr. Chairman.
    Chairman Talent. I just have a few. There is a study going 
on now on veterans access to entrepreneurship, particularly 
disabled vets. When did the agency contract that study out?
    Ms. Myers. December 1998.
    Chairman Talent. When did Congress pass the money and 
authorize it?
    Ms. Myers. Congress did not give us any money for it. They 
authorized it but didn't appropriate funds. Our Administrator 
found the money, $360,000, to pay for the study. We are 
anticipating its being finished by the end of this year.
    Chairman Talent. I thought we gave them $750,000 in 
September of 1997, and the agency didn't contract the study 
until December of 1998.
    Ms. Myers. Right. The $750,000 was for the outreach grants, 
not for the study.
    Chairman Talent. It covered the study as well, I think. It 
took 14 months to contract the study.
    Ms. Myers. From what we understand, we did not have an 
appropriation for the study. We allocated our own money for the 
study.
    Chairman Talent. It did take 14 months, didn't it?
    Ms. Myers. It did take us a while. Part of the problem, Mr. 
Chairman, the biggest problem goes back to that we don't have 
the statistics. The organization that we contracted with also 
had problems getting the statistics that they needed and the 
information.
    Chairman Talent. You are telling me that the organization 
that you contracted with was the problem----
    Ms. Myers. No. The problem was that they had trouble 
accessing--we don't have proper statistics about vets 
throughout the government.
    Mr. Forbes. Mr. Chairman, could I just ask a quick 
question. The office of advocacy, isn't that part of their 
responsibility, to gather those statistics?
    Ms. Myers. Yes.
    Mr. Forbes. But the agency hasn't been regularly gathering 
that kind of statistics?
    Ms. Myers. It comes down to a funding issue and 
traditionally they have not.
    Chairman Talent. That is the reason for the study, to get 
the statistics. If we want to go into whether we need this bill 
because the SBA has been doing a great job for veterans, we can 
do that. I would rather not. Larry Wilson said, and he is 
quoted as saying in the Sacramento Bee, this is in July of 
1998, ``Very little has been spent on veterans affairs by SBA 
in the past. We are just not reaching out more.''
    Would you agree with that?
    Ms. Myers. Historically, yes.
    Chairman Talent. Because while you said this $12 million 
could be spent on Veterans Affairs, it could not if we gave the 
administration what it requested because it keeps requesting 
cuts in Veterans Affairs.
    Ms. Myers. We are dealing with the whole downsizing of 
government and everything is being cut.
    Chairman Talent. You have enough money to ask for the 
things that you think are important. I agree with those, too, 
like microloans, the women's business centers. I strongly 
supported those. But the whole point is that it shows where 
veterans rank currently in the agency's priorities, just not at 
the top. Again, I understand that there is never enough money 
to do everything that you want. But the point of this bill is 
to say more strongly--all of us on both sides of the aisle have 
been saying it for years--that you need to pay more attention 
to veterans. Don't come in and say that the bill is no good 
because we are paying enough attention to veterans.
    Ms. Myers. We are not saying that the bill is not any good. 
We think the bill has some very good points to it.
    Chairman Talent. You have got room in the budget now for 
ten associate administrators, right? So this would be another 
one. It is not like the first one.
    Ms. Myers. No.
    Chairman Talent. I mean for SBDC, a program I support, the 
administration keeps asking for cuts in it, but we have got an 
associate Administrator for SBDCs. Government contracting, that 
is important. We are saying that the veterans are important, 
too. That is all we are saying.
    Ms. Myers. We absolutely agree with you. I think our 
philosophy has been that we have many programs that service all 
businesses. Our goal has been to make sure that vets and all 
constituencies access all of our programs, our 7(a), our 
procurement programs, our technical assistance programs. Our 
approach has not been to single out a constituency. It is to 
provide those services for all constituencies.
    Chairman Talent. If you want, go ahead.
    Ms. Velazquez. Ms. Myers, where would you have to cut to 
implement this legislation?
    Ms. Myers. Well, it depends on what amounts are attached to 
each piece. For example, if the $12 million piece like that 
came in, we would have to get back to you. I don't have the 
authority today to tell you where we would cut.
    Chairman Talent. OK. Why don't you continue with your 
statement.
    Ms. Myers. I think a lot of it has been covered. But I will 
say that many of the things in this legislation came out of the 
task force's work. We felt really good about the task force's 
work and our efforts to try to make some improvements in the 
veteran's community.
    One of the recommendations that came out was to add 
representatives of the vets community to our National Advisory 
Council, which we did. We also added someone to our Small 
Business Development Center Advisory Board. Some have been 
added to our SCORE board to make sure that veterans are 
represented in all of our advisory boards. So that is making a 
big difference. For example, we have added in this year's SBDC 
program announcement that part of the requirement is to do a 
better job of reaching out to vets.
    So we think that that will make a big difference. With 
regards to financial assistance, we believe that the existing 
7(a) program is adequate to serve veterans' borrowing needs. 
Our major concern is whether the legislation is intended to 
require SBA to make direct loans to service-disabled vets. As 
you are aware, we have not received any funding for the 7(a) 
Direct Loan Program since 1995.
    In choosing to discontinue direct loan funding, the 
Congress sought to make the 7(a) program more cost effective 
and to make better use of the skills and abilities of our 
lending partners. So the program is authorized, but not funded. 
That is so for the HAL program and the Vietnam Era vet direct 
loans program. That is one that is authorized, but we just 
don't have the funding for it.
    We feel strongly that more microloans to vets is a very 
good idea. And also we are very much in favor of an SBIC for 
vets. We have three now for women, and we are very excited 
about the potential of that. The same process could be used for 
vets. We are very supportive of that. We are very much in 
support of the legislation to increase service-disabled veteran 
participation in subcontracting opportunities. Again, as I 
talked about earlier, our problem is that we just don't have 
the information right now to determine what that goal should 
be. We don't know what they are currently getting, but we feel 
strongly that they should be recognized and that we should 
collect the data.
    In closing, our goal is to integrate all of the 
constituencies across the programs that we deliver, and 
veterans are very important to us, in particular service-
disabled veterans. Working closely with the constituency, we 
hope to make strides as we go forward. On some of the issues 
that we don't agree, we would like to spend some time talking 
to you and trying to come to some agreement.
    Chairman Talent. Mr. Pascrell has a question or two before 
you have to go.
    Mr. Pascrell. Thank you, Mr. Chairman. Good morning, 
Administrator Myers. It seems to me that we are missing a very 
fundamental principle here, and that is with all veterans 
programs. We can't do enough. One of the reasons we can't do 
enough is we don't know who they are and where they are. We 
have not done a good job, no agency has, let's be honest, in 
reaching out.
    We had a registration drive in my district this past 
Saturday. The veterans just registered and thousands showed up. 
It is unbelievable. They don't even know what their benefits 
are. We have not done a good job. That is why the debate over 
veterans benefits, particularly health benefits, but no 
different really in the way that we are discussing it this 
morning, opportunities for jobs. Folks need to have that 
information and many veterans are reluctant to come forward. 
The major burden falls upon our shoulders, to communicate to 
veterans what is available, what are the opportunities. There 
is a tremendous amount of joblessness among veterans. They feel 
that nobody does care. If we are not outreaching, they are 
right.
    The question of outreach, Mr. Chairman, is very critical to 
all of the issues we discuss concerning veterans. Today we 
happen to be discussing what the business opportunities are and 
small business opportunities. We adjusted the wheels in order 
to respond to the needs of women and minorities in the past 4 
or 5 years. We need to adjust and readjust the wheel right away 
in order for us to have veterans part of this. I think there is 
no one that can help us more than veterans.
    If we are establishing programs in the community to make 
job information available without discussing it first with 
veterans, I will dare say it will be a failure. So we need to 
bring them in before we design any new programs but we need to 
do it, and we need to do it right away. We need to find the 
money to do that. This Committee has always worked in a 
bipartisan way so that should not be our main task. It 
shouldn't be too difficult a task. So I am asking you in terms 
of looking at what kind of outreach we do have, whether that is 
sufficient or are we waiting for things to happen.
    Every Federal agency that is waiting for something to 
happen should be dissolved. We should take the money away from 
that agency. We should play hard ball with that agency because 
either you are proactive or you are not doing your job. We can 
mouth all we want about veterans. As one, I can mouth at 
myself. Unless we are doing something proactive, this is not 
going to work. I want to hear from the agency itself. What 
proactive means are we employing to make sure our vets 
understand what is available to them? Many of our vets have 
been laid off in the mergers. Is there any programs that deal 
with that or are we flying by the seat of our pants? If we are, 
that is not good enough for our veterans. Really, it shouldn't 
be good enough for anybody, but particularly our veterans. I am 
very concerned about how SBA is going to reach out to our 
veterans. I would like to hear about that. Thank you, Mr. 
Chairman.
    Chairman Talent. If the gentleman would yield for just a 
second. One of the really attractive features of this bill--and 
I appreciate the gentleman's help on this; he is a cosponsor as 
is Ms. McCarthy, and I appreciate your help with that--is this 
veteran's corporation that we are going to create with this 
bill which will be self-sustaining in about 4 years. The 
response from the business community has been really excellent.
    We are going to have a witness to that effect later on 
today about how to raise that money privately. But the 
corporation I think will be very effective because one of the 
things it is supposed to do is to establish veterans assistance 
centers within communities to network and outreach. These will 
be real vets staffing these centers similar to the women's 
business centers. There are also sets of public-private 
partnerships on a national level.
    Frankly, it gets this out of all of these agencies which 
haven't been doing it and puts it into the hands of a group 
which really does care. That is what the vets, that was the 
report of the task force, they wanted a corporation like that. 
The vets groups have been saying that is what we need. I think 
it will make a big difference. I appreciate the gentleman 
working on it. We are going to follow up in terms of what the 
agency is doing.
    Mr. Pascrell. Just in conclusion, Mr. Chairman, I think 
every Congressional office in the country, some do it and some 
don't, should be an outreach for veterans. That should be a 
conduit for which information can get out to our veterans on 
health matters and on job matters.
    Many of our veterans are homeless. We need to address that. 
I don't know if the Small Business--this Committee can do 
anything about that, but at least we can talk about it, think 
about it. I personally believe that we cannot do enough. We 
have great debates in the Congress right now going on, 
partially with the administration. That cuts across party lines 
here in cutting veteran benefits to parts of the country 
because there is a shift in the population to our veterans. I 
am very concerned about that, and I know that many of the folks 
on this panel are. I have talked to them about it. If we knew 
where the veterans were and if we were proactive in registering 
them to make sure that we can respond in total demographic, I 
think we--veterans would be hopeful about the future. If we are 
waiting in our offices for this to happen, it is not going to 
happen. It is just not going to happen, Mr. Chairman. I thank 
you for bringing this to the table.
    Chairman Talent. The gentleman exposed a little secret 
behind this bill. I think these--the veterans assistance 
centers--are in effect going to empower the veterans 
communities to advocate effectively on their own behalf. Then 
you are going to see agencies and also the Congress sit up and 
take notice and give them a higher priority. Ms. Myers, are you 
finished? I know you have to go. Do you have anything else that 
you want to add? Mrs. Kelly, go right ahead. We are doing this 
informally. I will go back to the regular order in just a 
minute. Go ahead.
    Mrs. Kelly. Thank you very much, Mr. Chairman.
    I would just like to ask Ms. Myers a couple of questions. 
It seems to me odd that you can sit here and say that you don't 
have proper statistics, and I am quoting you. You said there 
are not proper statistics throughout the government. You are 
referring to your own agency, you may be referring to the 
Veterans Administration and to other agencies as well. I find 
that very strange.
    I don't understand why someone in today's world--pick up a 
marvelous invention called a telephone and call and find out 
why--what is over there and why you haven't been collecting. I 
would like to know why you knew this was coming and why your 
agency didn't pick up the phone and get the statistics before 
you came.
    Ms. Myers. They are not available. Unfortunately, the 
agencies, for example, as with procurement, have not been 
collecting data on vets. It is a big issue. I am not an expert 
on it, so we can get back to you in more detail?
    Mrs. Kelly. I really would like to know why our agencies 
don't talk to each other. We have a number of agencies in 
government, and they don't seem to communicate the essential 
pieces of information that we all need in order to have good 
legislation. I think that you have just pointed out not your 
problem so much but the entire governmental problem with regard 
to agencies.
    The other thing I am concerned about is the fact that I 
want to make sure that if we put in place a program to help our 
veterans get into businesses and if we get them the support, as 
we have done with women, I want to make sure this isn't a 
hollow promise to the veterans. I know full well that we have 
right now in place essentially a law that says all government 
procurement contracts are to have at least 5 percent women.
    Right now that is not even over 2 percent. If we are going 
to make hollow promises to the veterans, that is not good 
enough. I want to know how that is going to be addressed.
    Ms. Myers. Part of the issue, again, is we don't have 
significant information to determine what the vet's goal should 
be because, the data on Federal procurements awarded to vets, 
including service-disabled veterans, is not tracked by the 
agencies. We have been working to try to assess what changes 
need to be made in the data collection. We are putting a letter 
together that is being sent to OFPP in the next week or two.
    Mrs. Kelly. Do you know how we established that women 
should have 5 percent? Women are more than 50 percent of the 
U.S. population, and women own more than 40 percent of the U.S. 
small businesses.
    As you say, we don't have statistics like that about 
veterans, but we need to know where that percentage should be. 
I would like very much to see us focus something on that kind 
of data collection. But also if 5 percent is good enough for 
the women, we could start with 5 percent for the veterans. One 
other aspect that I find very disturbing is the fact that I 
have found that agencies in the Federal Government do not 
disseminate the essential piece of information that they are 
supposed to have, 5 percent of their procurement contracts 
given to women, allocated to veterans. Are you doing anything 
at the SBA to try to correct that, to do an educational level 
thing to bring up information to our other agencies about that?
    Ms. Myers. About the women's----
    Mrs. Kelly. About the women and are you committed to doing 
that about veterans.
    Ms. Myers. Part of the reason we are able to set the 5 
percent goal in 1994 for women is because we had statistics 
that showed us we were getting less than 2 percent of the 
contracts.
    So number one, we don't have that for vets, and we really 
want to make sure that we do get that data. Number two, through 
the interagency committee on women's business enterprise over 
the last 4 years of this Clinton Administration, we have been 
working across the agencies to try to improve the status of 
women in procurement. We have not really done that great of a 
job because there are no teeth in it.
    That is an issue for a different hearing, because if there 
is just a goal and no teeth, we really haven't done very much 
for women in procurement. So that is another issue. But we do 
believe that before you do anything, you have to have 
statistics to know what the status is. Let me say again, we 
feel strongly that vets should be recognized. They should be 
getting their fair share of procurement, and we will work 
towards that.
    Mrs. Kelly. Any guesstimate on how rapidly you are going to 
be able to do that?
    Ms. Myers. The letter that is going out to OFPP, which has 
addressed the changes that need to be made, is imminent. 
Unfortunately, it takes--from what I understand, we can get you 
more information--it takes about a year and a half to make 
these changes. You might be able to help us on expediting that.
    Mrs. Kelly. Believe me, I will do anything to make sure 
that you get the statistics. I don't want to make a hollow 
promise to the veterans. They don't deserve that. Too many 
promises that the government has made to the veterans have been 
hollow, and this is not one that I want to see. Thank you.
    Chairman Talent. We are going to go back. I thank the 
gentlelady. Ms. Myers has to leave anyway and the other 
witnesses have been very patient. We will go back to the 
regular order. I will say, Betsy, my staff tells me, and with 
the e-commerce hearing I am learning more about surfing the 
net, that when you access your OED page or office of 
entrepreneurial development page, there are a number of 
different programs. There are two programs which if you click 
on them, you get nothing. One of them is Native American 
Affairs and the other is Veterans Affairs. You may want to 
check on that.
    Ms. Myers. We are developing that page now.
    Chairman Talent. The problem being that you have 
information for veterans, but they won't be able to get to it. 
This is the page they will go to, and they will click on it and 
get nothing.
    Ms. Myers. That is going to be connected to the vet's web 
page that we are developing. Also, as I mentioned earlier, our 
online classroom, which is accessible through SBA's home page, 
will have classes. We are working on classes for veterans.
    Chairman Talent. I hope you also connect up the Native 
American Affairs page.
    Ms. Myers. That is being developed as well.
    Chairman Talent. I thank you for coming and being patient 
with us. You are always welcome before the Committee, Ms. 
Myers.
    [Ms. Myers' statement may be found in the appendix.]
    Chairman Talent. Our next witness is Anthony Baskerville of 
Washington, DC, from the Disabled American Vets. I want to 
thank him and the other witnesses for their patience and 
understanding. We did want to have a chance to ask Ms. Myers a 
few questions. We will go back to the regular order which means 
we will hear all of the witnesses and Members will have a 
chance to ask questions. Mr. Baskerville.

  STATEMENT OF ANTHONY BASKERVILLE, WASHINGTON, DC, DISABLED 
                       AMERICAN VETERANS

    Mr. Baskerville. Mr. Chairman and Members of this 
Committee, on behalf of the Disabled American Veterans and its 
Women's Auxiliary, I am pleased to appear before you today to 
discuss H.R. 1568, the Veterans Entrepreneurship and Small 
Business Development Act of 1999.
    As an organization of more than one million service-
connected disabled veterans, DAV is especially interested in 
legislation to enhance entrepreneurial opportunities for 
veterans and promote their efforts in participating in the 
small business community. In spite of current law, we believe 
that veterans attempting to start their own businesses and 
those who own their own businesses have not received the 
attention from the SBA they deserve.
    H.R. 1568 encourages the SBA and other agencies to 
implement positive efforts to assist veterans, particularly 
disabled veterans, in the formation and growth of small 
businesses. The establishment of the Office of Veterans 
Business Development and the position of associate 
Administrator for the Veterans Business Development at the SBA 
will ensure the guidance and monitoring of public and private 
initiatives to assist this Nation's veterans in their efforts 
to form and expand small businesses. Mr. Chairman, the DAV 
applauds this bill's objective to make veterans eligible for 
assistance under the SBA's microloan program and to include 
service-disabled veterans with handicapped individuals in 
provisions requiring that loan-making decisions be resolved in 
favor of prospective borrowers.
    Mr. Chairman, H.R. 1568 is a comprehensive approach to 
encouraging entrepreneurship among veterans through loans, a 
variety of support and technical assistance, and assistance 
which veterans so rightly deserve. The Federal Government has 
an obligation to serve veterans because of those who have 
served in our defense. Veterans deserve the attention H.R. 1568 
provides.
    For too many years, other groups in this country have 
benefited from SBA's programs through procurement contracts and 
certain benefits of management and technical assistance 
targeted to these individuals belonging to particular classes. 
Veterans have not enjoyed similar status. H.R. 1568 corrects 
that.
    Mr. Chairman, we are very appreciative of your leadership 
on this most important issue. H.R. 1568 will expand existing 
laws and establish new assistance programs for veterans who own 
or operate small businesses. We also applaud the committee's 
interests in these issues and we appreciate the opportunity to 
present our views. Thank you.
    Chairman Talent. Thank you, Mr. Baskerville.
    [Mr. Baskerville's statement may be found in the appendix.]
    Chairman Talent. And now Valerie Callaway of Dale City, VA. 
Ms. Callaway.

          STATEMENT OF VALERIE CALLAWAY, DALE CITY, VA

    Ms. Callaway. Thank you, Mr. Chairman. Mr. Chairman and 
Members of the Committee, on behalf of all veterans who served 
their country and wish to embark on small business ownership, I 
thank you for inviting me to participate in today's most 
important hearing concerning the ``Veterans Entrepreneurship 
and Small Business Development Act of 1999.''
    My testimony today is limited to my personal experience, 
not only as a veteran but as a 100 percent permanent and 
totally disabled veteran who had once been a small business 
owner. I proudly served my country in times of war and peace 
for over 15 years never asking for anything in return. During 
my 15 years, I was provided the opportunity to not only excel 
in my military occupation but my civilian occupation as well 
which provided me a BS in business from Kent State University 
in Ohio.
    In October of 1995, I suffered heart failure requiring 
implantation of a pace maker; and a year later, I was medically 
retired from the United States Army. Upon retirement, I found 
it difficult to find employment due to my disability and the 
lengthy time it would take before I was able to see a VA 
rehabilitation counselor concerning employment. I had three 
small children at home and decided I could take my experience 
and education and open a State-licensed preschool child care 
program in my home for other working veterans who found 
civilian day care not adequate enough due to overtime and long 
hours.
    I looked for help but found nothing or no one to support my 
ideas. I had gone to private firms and institutions for 
financial backing. Without a stable history of residency, no 
one was able to help me. I turned to the Small Business 
Administration only to find out there was not a program in 
place to adequately assist my endeavors, and their web site was 
always under construction concerning veterans.
    But I did not give up. I ultimately filed for a State 
license, spent over $10,000 of my own savings preparing my home 
for a State inspection and getting county approval to authorize 
such a facility in my zoning district. The whole process took 
over 3 months and a lot of researching. After running into 
several road blocks, I was finally placed on a State-certified 
list, and it was distributed to potential clients.
    Nine months later my business was closed with a loss of 
over $25,000. I am telling you this story because I want to 
tell you how very important this legislation will be for future 
veterans who want to pursue their dreams of private business 
ownership, and the tremendous support it can receive from 
programs such as the National Veterans Business Development 
Corporation in the areas of business development, technical 
assistance, financial assistance, and training upon completion 
of their service obligation. With the goal of providing more 
and better support from the Small Business Association to all 
veterans desiring such, I speak for all veterans in support of 
this bill's provisions in providing for enhancement of services 
provided to veteran-owned small businesses.
    Given SBA's current strained funding and service to 
veterans situations, it would only make sense to establish and 
expand more technical, financial, and procurement assistance to 
veterans who want to pursue their dream of small business 
ownership. Further, all actions taken on this bill should 
directly benefit the veteran and the disabled veteran 
respectively. Mr. Chairman and Members of the Committee, I 
thank you for letting me speak here today on behalf of all 
veterans. Thank you.
    Chairman Talent. Thank you for coming, Ms. Callaway. It 
always helps the committee when we have, for lack of a better 
word, I will just say real life stories from people who have 
tried to make the system work. We are grateful to you for 
coming here today. Not that the rest of you aren't real live 
people.
    [Ms. Callaway's statement may be found in the appendix.]
    Chairman Talent. Our next witness is Mr. John K. Lopez of 
Stanford, California, the chairman of the Association for 
Service Disabled Veterans. I just want to say about John what 
you can say about everybody on this panel, how much I 
appreciate and admire him and them for their work year after 
year after year for veterans in general and service-disabled 
veterans. It is just tremendous. We know what an uphill battle 
you often have dealing with the government. I thank you for 
your persistence. Mr. Lopez.

STATEMENT OF JOHN K. LOPEZ, STANFORD, CA, CHAIRMAN, ASSOCIATION 
                 FOR SERVICE DISABLED VETERANS

    Mr. Lopez. Thank you, Mr. Chairman. With the Chairman's and 
the Committee's permission, I would like to submit my prepared 
statement for the record, offer a brief summary statement, and 
be available to answer any questions that you may have. ASDV is 
extremely grateful to Members of the Committee for considering 
the legislation H.R. 1568. You are not going anywhere, are you?
    Chairman Talent. No. Somebody may be, but not me.
    Mr. Lopez. I am dismayed and I am alarmed by the 
administration's response--I am going to forget my prepared 
remarks--by the administration's response that organization and 
management problems in their agency preclude them reaching out 
to service-disabled and prisoner of war veterans who are 
businessmen.
    That is an outrage. I am sure the Members of the Committee 
are as outraged as I am. For 20 years, not 5, not 4, not 3, but 
for 20 years SBA has downgraded its assistance to disabled 
veterans and have totally neglected any record keeping of 
service-disabled and prisoner of war veteran activity. The 
administration's representative acknowledged to you that they 
have no data, that other agencies had no data; because SBA has 
not pressed them to collect data. They have no data because 
they didn't care.
    That is the answer to their organization and management 
problem when it comes to providing services to veterans. So 
when they respond to this legislation by saying that this is a 
structural problem for them, that is another delaying tactic. 
We do not have time for delaying tactics, especially myself. I 
am old, and I am dying. There are others like me. We don't have 
time to benefit from our sacrifice. You have made that decision 
for us. You will be hearing from Mr. Charles Foster of SBC 
Telecommunications, one of the largest telecommunications 
companies in this country who didn't wait for statistics, and 
didn't wait for organization mismanagement to launch a program 
throughout the western United States for service-disabled 
veterans in SBC's procurement program.
    I am also authorized by the Bank of America to announce 
that, in September, they will be launching ten sites for 
outreach, Mr. Pascrell, to veterans, especially service-
disabled veterans because their board and their chairman feel 
that this is a debt of the bank to this population.
    So I urge you to pass this legislation. Refine it if you 
will, but it is very, very important, if you are going to keep 
faith with the men who sacrificed their well-being for this 
country. These men know what is going on in the United States. 
You have people sitting in the Arctic. You have people sitting 
in the Antarctic. You have people sitting in jungles who know 
if they serve their country, their country will take care of 
them. However, when they come back, what are they told? 
Organization and management problems preclude us being of 
assistance to you? That is an outrage. Thank you.
    Chairman Talent. I appreciate the gentleman's statement and 
it is an example of the kind of passion that has been expressed 
to me in private conversations that led to this bill.
    [Mr. Lopez' statement may be found in the appendix.]
    Chairman Talent. I will deviate from the regular order for 
a moment because Mr. Pascrell, a cosponsor of this bill and 
advocate for veterans, wants to make a brief statement.
    Mr. Pascrell. Thank you, Mr. Chairman. Thank you, Mr. 
Lopez. So much for veteran preference. We battle those things 
out in the States around this country, particularly in terms, 
since we are discussing employment for employment--I am sure 
that you support that veteran's preference. But you can't have 
preference if you don't know it is available. And you can't 
know it is available unless the agency, this agency today but 
other agencies out there, too, Mr. Lopez, do not make it a 
special part of priorities to reach out to the veterans.
    We have an attitude, Mr. Chairman, we have an attitude. The 
more outreach, the more eligible vets. The more eligible vets, 
the more needs. The more needs, the more that we will have to 
respond. Well, too bad. That is what this is all about. You are 
fortunate to have a Committee and a Chairman that want to do 
something rather than just talk about it.
    We have to find a way to get this piece of legislation not 
only through this Committee, that is not going to be the 
problem, but to get it so that the leadership sees this as a 
priority. That is very difficult now on Members of both sides 
of the aisle to get anything done that is going to practically 
help people. So you have our support 100 percent. We identify 
with what you said, and I know something is going to get done 
because the Chairman wants to get it done, and he is going to 
find a way to do it. We will support him in that endeavor. So 
veteran's preference is what this is all about.
    Chairman Talent. Thank you, Mr. Pascrell. I should say that 
we worked very hard with the Veterans Affairs Committee. Mr. 
Stump and Mr. Evans are strong supporters of this bill and have 
indicated to me their intention to waive jurisdiction to try 
their portion of this to expedite consideration on the floor. I 
would hope we can get very quick floor consideration. I thank 
the gentleman for his passion and his support and Mr. Lopez for 
his statement which summed it up even better than I could have.

  STATEMENT OF EMIL W. NASCHINSKI, WASHINGTON, DC, ASSISTANT 
           DIRECTOR OF ECONOMICS, THE AMERICAN LEGION

    Chairman Talent. Our next witness is Mr. Emil Naschinski. 
Emil.
    Mr. Naschinski. Mr. Chairman, and distinguished Members of 
the Committee, thank you for inviting The American Legion to 
share its views on H.R. 1568, the Veterans Entrepreneurship and 
Small Business Development Act of 1999. Chairman Talent, we 
also want to take this opportunity to publicly thank you and 
the cosponsors of this important legislation.
    In our written statement, we characterized the bill as 
being important because it would expand and improve 
entrepreneurial assistance to veterans. After reflecting on 
that comment, it occurred to us that that was incorrect. Our 
reason for saying that is that in order to expand and improve a 
program, you first have to have a program. SBA has not had a 
legitimate program for veterans in many years.
    Mr. Chairman, The American Legion now sees that bill as 
important because it will create a substantive entrepreneurial 
assistance program for this Nation's veterans. For that reason, 
The American Legion is pleased to join the other 38 veteran 
services organization that have publicly endorsed this 
legislation.
    Having said that, we would like to say that we do have 
concerns. We agree totally with the spirit and intent of the 
law or of the bill. However, we are deeply concerned about the 
likelihood of Congress approving an appropriation of $12 
million. While we see that expenditure as a prudent investment 
in the American economy, that does not mean that Congress will 
view it in the same way. We are also concerned about the Office 
of Veterans Affairs Resources. As we stated in our written 
statement, that office has been stripped to the point that it 
can barely provide any service to veterans.
    If this program is to succeed, that office needs resources. 
Our point, Chairman Talent, is that all too often Congress 
creates much needed programs and then either fails to provide 
funding or compromises the success of these programs by 
underfunding them. If Congress is serious about restoring 
Federal assistance to veteran entrepreneurs, it must begin by 
enacting this legislation. It must also provide the funding 
necessary for the provisions of H.R. 1568 to be achieved. To do 
anything less would not make good fiscal sense.
    Mr. Chairman, thank you for offering The American Legion 
this opportunity to comment on this bill. We look forward to 
working with you for enactment of this important legislation. 
Thank you.
    Chairman Talent. Thank you, Mr. Naschinski. Let me just say 
to you, sir, that I am also concerned about making sure that we 
have the funding. I have talked with some of the appropriators 
who are strong advocates for veterans and have received very 
favorable response. I am confident. I don't like to say such 
things until it has actually happened, but I am confident that 
we will get the funding this year. There is a real enthusiasm 
for this bill, I think, in the Congress.
    [Mr. Naschinski's statement may be found in the appendix.]
    Chairman Talent. Let me go right to questions. Ms. 
Velazquez has stepped out for a press conference. So Mr. 
Gonzalez is first up on the questions.
    Mr. Gonzalez. No questions, thank you.
    Chairman Talent. Mr. Bartlett.
    Mr. Bartlett. Thank you, Mr. Chairman. Several of us are 
Members of both this Committee and the Armed Services 
Committee. From the perspective of the Armed Services 
Committee, this is a very important bill. As I mentioned 
before, veterans are very important to us for two reasons.
    One is we owe them. They put their life on the line, many 
of them gave their lives, they can't be here with us. For those 
who put their life on the line and still with us, we owe them.
    The second reason that our National Security Committee and 
the Armed Services Committee is very supportive of this bill is 
that unless we treat our veterans fairly, our young people are 
not going to volunteer for the military. We still have an all-
volunteer military force, and they are watching.
    They see that we have not kept our promise to our veterans 
for lifetime health care in military facilities. I don't know 
what it would cost us to do that, but it is costing us a lot 
more to not do that. We need to keep that promise.
    In terms of serving our veterans in the small business 
community, obviously from the testimony, we have done a very 
poor job of doing that in the past. Our young people are 
watching to see if we are taking care of their fathers and 
their uncles and the friends that they know. If we are not 
taking care of them, they are not going to volunteer. I think 
this bill is important beyond just the perspectives of the 
Small Business Committee. It is very important from the 
national security viewpoint. I want to thank the Chairman very 
much for his energy in promoting this bill. Thank you very 
much.
    Chairman Talent. Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman. First, I would like 
to ask a question of the panel. Is there anything we have 
forgotten in trying to put together a grassroots piece of 
legislation that is going to work, that is going to walk and 
then run and get passed? Have we forgotten anything? Do any of 
you feel that the veterans organizations have been part, as we 
expected it to be and as we want it to be, as the Chairman has 
so edified, do you believe that we have done that?
    Mr. Lopez. I think more it is more important that we get 
started. My concern is mainly for service-connected and 
prisoner of war veterans. Death and disability are very 
debilitating. We don't have time to play political games. Ms. 
Napolitano is very famous in California for making the 
statement that, ``nobody fool around with my veterans.'' She is 
a woman who is greatly loved by 3 million veterans and their 
families in the State of California.
    Mr. Pascrell. I think it is going to be very important to 
the Chair that the organizations--we are having the markup 
today, too, so the organizations do what they can in terms of 
the leadership of both parties to make sure that this comes to 
forth. I mean, $12 million is .0000001 of the entire budget. 
Now, we can find $12 million. I support economic development 
programs and initiatives, but this is a priority over that. We 
could go down the list because if we cannot service our 
veterans, then who can we service?
    If we don't make it a priority, no one else will. So I 
agree with you that we are close to action. The Committee's 
vote today should only be the beginning. We should make sure 
that we strike while the iron is hot. If we wait to summer 
recess, church is out. We will be back and all of a sudden, it 
is the year 2000. You know what is going to happen that year. 
Thank you, Mr. Chairman.
    Chairman Talent. I really appreciate the gentleman's 
comments. I have been restraining myself today in part because 
we have another panel and then a markup and I know Wednesdays 
are always very busy for Members.
    I am glad that the gentleman has stated that. Twelve 
million dollars is not a lot of money, and it is over 4 years. 
After this the corporation is going to be self-sustaining. I 
don't just say that to say it. It will be. We are going to have 
testimony from a business representative, a major executive of 
a major company, who is going to talk about what his company is 
planning to do.
    John just mentioned another instance. I think there is 
going to be a lot of support for this. John, let me ask you a 
question and anybody else who wishes to can comment on this. My 
vision for this corporation is they are going to, among other 
things, create these veterans assistance centers in 
communities. I hope that we can get this bill passed. Members 
may want to start already thinking about getting one for their 
community. For a little seed money we can get a center of some 
kind of a place in the community, use a VFW hall or a Legion 
hall, of the VSO buildings. Then have a couple of good staffers 
there who can do a lot of what we are talking about to make 
sure that the veterans communities are aware of opportunities.
    Networking. I visited one of my posts and they were saying 
how they--there is a gentleman there who helps connect needy 
veterans' families with respite care. He goes out and finds the 
veterans' spouses who need some help because they are taking 
care of a disabled vet and arranges for respite care. This guy 
does this all unpaid on his own time. I think this will 
leverage so much activity, so many more dollars for these 
veteran centers. Does somebody want to comment on that? That is 
really my big vision for this bill.
    Mr. Lopez. I mentioned the Bank of America's program. They 
are not asking for Federal dollars. It is their dollars. They 
feel their obligation so strongly they don't want to wait for 
Federal support--they authorized me to speak for them in this 
manner. They don't need the government dollar. What they are 
concerned about is that they feel that it is the Federal 
Government, and the U.S. Congress's responsibility to take care 
of veterans. Why aren't they doing something? Why does the 
private sector have to do it?
    Chairman Talent. One other question that I want to ask you, 
John, because Ms. Velazquez raised it, and it is legitimate 
concern. You know, you and I have talked about this. The impact 
on the procurement goal for disabled vets on other classes for 
which we have goals. This is happening in California. I want 
you to discuss that experience here. It has not had a negative 
impact, has it? And in fact many of the disabled vets will be 
veterans or women. Could you elaborate on that?
    Mr. Lopez. You will have another speaker, Mr. Foster, from 
SBC Telecommunications, a very active program in California. 
What happens in California doesn't bother them at all. They 
continue to increase their procurement for minorities, women, 
and disabled veterans. We are very, very proud of that company 
and their response to disabled veterans especially.
    The developments in California have no impact. The question 
is to get a bigger piece of the pie, not to fight over a small 
piece of the pie. I don't know who developed constrictions 
saying, well, if you put somebody else into the mix, suddenly 
you are going to be battling over a small piece. The fight is 
to make the piece bigger, not to fight over small pieces. It is 
all misdirected.
    Chairman Talent. We have a vote, but Mr. Forbes, you are 
next. You can ask your questions before and then we will 
adjourn for a recess for the vote.
    Mr. Forbes. Thank you, Mr. Chairman. Actually this would be 
for anyone in the panel. If you could just kind of help the 
Committee in understanding why it is that veterans are not 
accessing these programs that are offered by SBA. Is it 
specifically because veterans just don't know that the SBA has 
these programs available to them? Is it as simple as that?
    Ms. Callaway, if you wouldn't mind, share your experience a 
little bit. Were you able to go to a local SCORE representative 
when you were thinking about starting your business?
    Ms. Callaway. Sir, I didn't even know that SCORE existed. 
There was a tap briefing. They touched on small business, 
getting in touch with the Small Business Administration about 
procuring your own small business, but that was it. There was 
no outreach, there was no education whatsoever on SBA or what 
was available to the veteran upon leaving the service or during 
while they were in. It was never available to me. I just 
retired in 1996. So we are talking very recent here.
    Mr. Forbes. Did you call the local SBA office and try to 
get a hold of the veteran's contact there?
    Ms. Callaway. I called the local SBA office, and they gave 
me the number to Washington. They are constrained right now. 
They weren't very much help in putting me in the right 
contacts. Especially in the district where I was. When you are 
a veteran and you get out of the military, you are displaced. 
You don't have residency. People aren't really going to back 
you up. You have been gone for 15 years. You don't have the 
stability that somebody else might have in the community who 
wants to start their own business, and you don't have the 
backing either. It is very hard. I found it really difficult.
    Mr. Forbes. Anybody else in the panel want to comment on 
the lack of veteran access to these programs.
    Mr. Lopez. You don't have a program directed at them. This 
has been repeated over and over again. So they don't have 
anything to react to. There is nothing directed to them so they 
don't know about the benefits.
    Mr. Forbes. They do have a veterans representatives in 
every one of the 50 States.
    Mr. Lopez. The veteran's representative is a myth. It is 
whoever is wearing the helmet of the day. Today I wear a helmet 
that says veterans representative. Tomorrow I wear a helmet for 
small business loans, and the next day I wear a different 
helmet. It is whoever is on duty that gets the veterans duty 
that day.
    Mr. Forbes. Is there anything in this bill that corrects 
that part of it?
    Mr. Lopez. Yes. One is I think that you noticed in this 
bill is we are asking for the opportunity to do something for 
ourselves. We are saying let us try to solve our own problems. 
Maybe then we won't have to come back and burden you anymore. 
Give us some resources, and we will take care of ourselves. We 
are not dead yet.
    Mr. Forbes. The veterans assistance centers that you are 
referring to?
    Mr. Lopez. And the entire program. The National Veteran's 
Business Development Corporation gives us a chance to take care 
of ourselves. We have done it before. We have taken care of the 
country, and we can take care of ourselves.
    Mr. Forbes. I have no doubt. Mr. Chairman, I appreciate the 
chance to ask that question. I would say that as a cosponsor of 
the bill I think that the bill does go in the right direction. 
It does make some tremendous advances to try to get more 
veterans involved in these programs. I would just say that--
well, maybe not a direct result of the legislation, I would 
hope that one of the nice sidebars to passage of this 
legislation would be that more veterans themselves will 
actually be administering the programs to other veterans.
    I think that is part of unlocking the secret. If we have 
veterans reaching out to veterans as I think Mr. Lopez is 
suggesting and those of the panel and their comments have 
suggested, I think that will help also in this outreach effort. 
To the extent that this legislation would do that, and I think 
it would, we have made great leaps forward. Thank you for being 
here today.
    Chairman Talent. I thank you, Mr. Forbes. We are going to 
recess and then come back. Let me just say that I have been 
very proud of my colleagues. You don't need me to say that, but 
everybody is so sincere in wanting to help veterans.
    I will say this to the panel. We get around the community. 
People talk to us. We know the needs that are out there. We 
know the constraints that everybody is under. I haven't talked 
to a Member of Congress about this bill who hasn't been 
enthusiastic about doing something and a little frustrated 
about what hasn't been done in the past. I think that actually 
shows us to a pretty good advantage.
    Anyway, we will be back. Everybody hurry back because we 
want to do this panel and then another panel and then the 
markup. Please don't forgot we have a markup on this later.
    [Recess.]
    Chairman Talent. All right. If we could reconvene the 
hearing, we will continue with this panel. We do have another 
and then a markup, but we appreciate the Members' interest and 
their questions. Next up, I believe, is Mr. Davis. You are 
next.
    Mr. Davis. Thank you, Mr. Chairman.
    Chairman Talent. We will let the witnesses settle in here. 
Mr. Lopez, if we could have your attendance, thank you. 
Actually, John, we need you to sit down at the witness table.
    Mr. Lopez. I thought you were discharging me.
    Chairman Talent. No, not at all. We want you. We have voted 
and come back and Mr. Davis is recognized for questions.
    Mr. Davis. Thank you very much, Mr. Chairman, and let me 
also thank the witnesses for coming. But I also want to 
compliment you and the Members of this Committee especially all 
of those who have signed on to this particular piece of 
legislation.
     I think it is an excellent attempt to reach out to 
veterans and provide opportunities for them to move into the 
mainstream, especially by establishing their own businesses. I 
represent a district that has a large number of veterans with 
service-connected illnesses. As a matter of fact, my district 
is one of only two in the country that has three veterans 
administration hospitals, all in my congressional district.
    That is the Hines V.A. Hospital, Westside and Lakeside, all 
connected with three major medical schools as well. So we do 
have a great deal of veterans advocacy in our community and a 
number of very active veterans organizations and groups. I must 
confess that we have been able to have the Small Business 
Administration be actively involved as well.
    The question that I have is for Ms. Callaway. Had this 
legislation been in effect at the time that you started your 
business and as you continued to develop it, how do you think 
it would have been able to help you?
    Ms. Callaway. I think if I was educated prior to leaving 
the service, it would have been available to me and had the 
opportunity to access that type of information, I would have 
been able to go forward a lot easier knowing who I could 
contact, who would back me up and support, especially with the 
moving around and deploying so much, gaining stability in one 
certain area.
    I am from Ohio, and I settled in Virginia. I chose to 
settle in Virginia and retire in Virginia because that is where 
I wanted to be at the time. Who do I get to back me in the 
State of Virginia? If this had been in place, I would be able 
to go to them. Just like if you need something from the VA, you 
go to the VA. If you need something from the SBA, I should be 
able to go to the SBA and get the backing from them no matter 
what State I was in. Or if I was getting out overseas, I should 
be able to access them from anywhere. Had it been available and 
had I been educated prior to getting out I probably would have 
been successful. And like I did get a business degree, but 
actually finding out about what was available to me as a 
veteran and support was not available.
    Mr. Davis. I certainly hope there would be no other persons 
who would find themselves in the same situation and especially 
as we pass this legislation. I don't have any other questions, 
Mr. Chairman, but I would like to be associated with the 
comments made by Mr. Pascrell and also I have an opening 
statement that I would like to submit for the record.
    I have no further questions. I thank you very much.
    [Mr. Davis' statement may be found in the appendix.]
    Mr. Bartlett [presiding]. Without objection.
    The record will be held open for several days for 
statements from the committee, and there may also be questions 
from the committee to the panelists.
    We will hold the record open for several days so that they 
can be put in place and you will have a chance to give your 
answer.
    Mrs. Napolitano is next.
    Ms. Napolitano. Thank you, Mr. Chairman. I am very happy to 
see such a wonderful panel here before us testifying as to the 
needs of the veteran community and to the shortcomings of our 
agencies. I am not just saying about SBA.
    One of the things that we have learned in the many years 
that I have worked with my veterans is that sometimes they want 
to be able to reach out, but for some reason they have no way 
of knowing where to go or how to access information, not 
necessarily because their American Legion and their VFW hall 
doesn't provide it for them, but there is no agency that really 
does any outreach to veterans regardless of the issues whether 
it is health or business or anything else, education being 
another one.
    In my area, I find that my veterans constitute a large 
segment of my community. They are very vocal. However, I would 
suggest and maybe challenge some of the veterans organizations 
to begin working together for real representation of veterans. 
Because once we leave here and the SBA or any other agency 
says, okay, that is it until the next time it comes up before a 
hearing, I think that we need to begin to work as one and put 
pressure on the agencies that are not fulfilling their 
obligation. That is very evident in many of the Federal 
agency's procurement capability for the MBDA and et cetera.
    I am glad that you are here voicing the concern of private 
organizations of veterans because I think we need to be able to 
remind ourselves and remind those of us who may have not been 
involved in any conflict but who have members of the family 
that are veterans among us, and remember that they put their 
lives on the line. And we tend to forget, forget that they need 
our help or tend to forget that we as a society owe them and we 
must not forget our debt to them.
    At this point part of what we have done in California and 
Mr. Lopez is well aware of that is trying to focus back to the 
need of not only the male veterans, but the female veterans 
simply because they are forgotten. Many of those women have no 
concept that they are veterans because they were given no 
mustering out information and there is no outreach. So we--I am 
very happy that you are here. I applaud the Chairman and the 
Ranking--Nydia Velazquez--Democratic person of this Committee 
because it is one of the issues that we talk about a lot. And 
we are not moving forward.
    As it was put before us 20 years ago, there was an 
inability for the SBA to deliver the information. It is high 
time that we make that a priority. I also would like to comment 
that I feel that the amount that is being allocated is a 
piddling sum. I tell you very frankly that we need to do more 
for our veterans than provide token funding for something that 
they have earned in their years of service.
    To kind of wrap this up, I would certainly like to make 
sure that we maybe dialogue over formulating a joint and 
concerted effort to be able to continue, not just the dialogue 
but the pressure on Congress and on the agencies, especially 
SBA, to get the job done. Thank you very much.
    Mr. Bartlett. Thank you very much for your support. Mrs. 
Christian-Christensen.
    Ms. Christian-Christensen. Thank you, Mr. Chairman. I too 
want to welcome our witnesses and apologize for being late. It 
does not speak against the importance that I place on this 
piece of legislation and I want to thank and commend our 
Chairman for putting forth this legislation that is so 
important. We across this country owe a debt to our veterans, 
and we are in default on that debt. This is just one small 
installment that we can make as we begin to address, as my 
colleague just said, many of the issues across board that we 
have not been addressing on behalf of our veterans. Of course, 
the disabled veterans present even more unique challenges that 
we have even further defaulted on. So I am pleased to be here 
to support this legislation and I really don't have any 
questions at this time, Mr. Chairman. Thank you.
    [Ms. Christian-Christensen's statement may be found in the 
appendix.]
    Mr. Bartlett. Thank you very much for your statements of 
support. Ms. Tubbs Jones.
    Ms. Tubbs Jones. Thank you, Mr. Chairman. Like my 
colleague, Donna Christian-Christensen, I am here a little, 
little late. I am a freshman Member of Congress. I have learned 
that you cannot be in more than one place at one time so I have 
given up trying to do it. I would love to have a clone.
    I have a significant veterans population in the City of 
Cleveland and the surrounding areas and support anything that 
we can do to support veterans here in Washington or back in the 
district. So again I would like to compliment our Chairman for 
placing this bill on the agenda before us. Thank each of you 
for coming and to testify. We don't mean to denigrate your 
comments at all, and I promise I will read them and take them 
to heart as we move through this process.
    Mr. Chairman, thank you very much. I yield the balance of 
my time.
    Mr. Bartlett. That you very much. Ms. Millender-McDonald.
    Ms. Millender-McDonald. Thank you, Mr. Chairman, and good 
morning to all of you. I again apologize for the tremendous 
scheduling that we have and my inability to hear all of your 
testimony.
    I have read some of it with great interest. Let me just 
speak on the fact that our veterans, of course, have fought in 
our wars throughout the country and throughout the world and 
here you are trying to fight for just a piddling 5 percent in 
terms of small business support for businesses. I applaud you 
for your efforts in coming to us. We should have been with you 
early on years ago.
    Here we are now trying to remedy and repair those 
inequities that we see. I am absolutely supportive of this bill 
and what it will do to begin the process of your buying into 
the small business administration contracts and all other 
contracts. I hope this is just the beginning of one agency 
starting this process and other agencies to follow. All 
agencies should address this issue of inequity with reference 
to our veterans and give you the type of support and the type 
of contracts, albeit sub or prime contracts, whatever you 
qualify for, to have that opportunity so you, too, can put your 
stake in the small business claims that are out there.
    I applaud you for coming this morning. I applaud the 
Chairman for his vision to provide this piece of legislation 
for all of us to embrace.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Thank you very much for your statements of 
support. I want to thank the members of the panel. Thank you 
very much for your very clear statements of need in this area 
and thank you for being with us and we will now excuse you and 
ask our next witnesses--Mr. Lopez, you have a question?
    Mr. Lopez. Thank you. Thank you for your attention and for 
your consideration.
    Mr. Bartlett. You are more than welcome. Thank you, sir. It 
is our pleasure. We will excuse you and impanel our next 
witnesses. Thank you very much.
    Thank you very much. We have two members who would like to 
make statements of introduction for one of our witnesses. One 
of those is Mr. Sessions. I would ask him if he could join us 
on the dais. The other is Mr. Gonzales. We are very pleased to 
have these three witness in our last panel with us, Mr. Elmore, 
Mr. Foster, and Mr. White. Let's begin now with some statements 
of introduction by, first of all, the visitor to our committee, 
Mr. Sessions.
    Mr. Sessions. Mr. Chairman, thank you so much for allowing 
me to be here. This is my first opportunity to be before this 
Committee, and I appreciate that opportunity. I would also note 
that Congressman Charlie Gonzalez from San Antonio, Texas, will 
be making some remarks concerning Mr. Charles Foster, and I 
wanted to lead that. I want to thank you for allowing me the 
opportunity.
    Mr. Charles Foster, who is today to give testimony before 
this committee, is a gentleman who is group president for SBC, 
Southwestern Bell Corporation, from San Antonio, Texas. Mr. 
Foster is one of my former bosses at Southwestern Bell 
Corporation. He is a friend and a mentor. He speaks not only 
with the SBC hat on today as the group president, but he is 
also a man who has a distinguished career, a military career.
    Mr. Foster served in the United States Army as a 
paratrooper. He was a young man who worked and fought on behalf 
of our country, served our country, and his testimony that he 
is to give today, Mr. Chairman, I would submit to you would 
come from not only as an executive from one of the largest 
corporations of America, but also as a man in his youth and 
throughout his life has dedicated himself to the veterans of 
this country.
    It is with great honor and distinction that I have that 
opportunity. I thank the committee for its opportunity to hear 
from me and Mr. Foster.
    Mr. Bartlett. Without objection, your comments will be 
included in the record. Thank you very much. Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Mr. Chairman. It is an 
honor and a privilege to welcome Mr. Foster here. Let me tell 
you how happy San Antonio was when SBC decided to headquarter 
in our city. It has been a celebration that has not been 
rivaled since but will be shortly when the Spurs win the 
championship.
    It comes as no surprise that we have a representative from 
SBC. I need to tell you what wonderful corporate citizens they 
are in San Antonio and wherever they may be situated if you are 
lucky enough to have them in your district. They show a great 
sensitivity to the needs of the city. They always are there. 
They volunteer. But they don't wait. They take the initiative. 
That is why I say--and I will repeat--it comes as no surprise 
that we have Mr. Foster here to tell you what SBC has been 
doing in the way of their own initiative and their own 
outreach. We all believe, I truly believe, and I can't speak 
for everyone here today, but the best ideas on how to serve the 
needs of the small businessmen and women really reside, those 
ideas reside in our individual districts in those neighborhoods 
and in our businesses.
    With that again, it is with great pleasure that I introduce 
and welcome Mr. Charles Foster.
    Mr. Bartlett. Thank you very much. And now we will move--
Mr. Davis.
    Mr. Davis. Could I just ask one question. Is this the group 
that is merging with Ameritech and getting ready to move into 
Chicago? It is a great opportunity to meet you. We look forward 
to seeing you when you get to Chicago.
    Mr. Foster. Thank you very much. We look forward to being 
there.
    Mr. Bartlett. Thank you, Mr. Davis. We will move now to the 
testimony of our witnesses. First is Mr. Will Elmore, St. 
Louis, Missouri, Data Force Associates. Mr. Elmore.

    STATEMENT OF WILLIAM ELMORE, ST. LOUIS, MO, DATA FORCE 
                           ASSOCIATES

    Mr. Elmore. Thank you, sir. Good morning, Mr. Chairman and 
other Members of the Committee. It is a great honor for me to 
appear before you this morning to provide my comments. I would 
like to submit my written comments for the record and add a 
couple of extraneous comments as well.
    Regarding the testimony we heard from Ms. Myers earlier 
today, there were a couple of errors that I wanted to correct. 
There are about 26 million veterans, not 24 million, so some of 
the data at the agency is even further incorrect. And veterans 
own somewhere between 16 and 20 percent of small businesses in 
this country, not 4.5 percent. I am not sure where that number 
came from, but I was surprised by it.
    You all have my statement and Chairman Bartlett, I have 
testified to you before so you know that I can go on for days. 
Unfortunately, I have had to go on for years about this issue. 
For those who had expressed interest in the idea of outreach 
programs for veterans, I was the director of a community-based 
outreach program in St. Louis for veterans for more than 20 
years.
    It was not a government program. It was a program that the 
veterans themselves created and through that small business, 
and self-employment opportunity was always a core service that 
we provided. I think I just want to comment at least in general 
now about what I view as the wisdom of this legislation. I have 
been a volunteer advocate in and out of this town since the 
1970s in regards to veterans and their families.
    I have never seen a piece of legislation nor been 
privileged to be part of a process that creates legislation 
that invests in veterans the way that this bill will. I want to 
compliment the Chairman and the Committee and all of the 
sponsors, all of the cosponsors, and I will compliment 
everybody when we pass this. Because for the first time in my 
adult life, we are actually going to treat their veterans and 
their families with respect and honor by investing in them 
instead of just treating them as people that should be shunned 
aside to go to what is increasingly a dysfunctional Department 
of Veterans Affairs.
    Now, we are not here for that reason, but that is my basic 
view. Bluntly, special consideration which has been on the 
books for the SBA since the 1970s doesn't exist. We know that. 
There is no more reason to talk about that. The strength of 
this legislation is that it puts the responsibility squarely on 
the veterans themselves, on Congress as well through the yearly 
reporting, and on the private sector, the veterans in the 
business community and those that are interested in working 
with and supporting veterans.
    For that, there is great wisdom in this legislation. I 
think we understand as veterans that we can do for ourselves 
more and better than anyone else can ever do for us. We would 
expect no more and expect no less. I think the fact that the 
focus of this legislation is that we treat those veterans with 
resources to do their job for themselves, their families, and 
their community is a great change. I hope that is what this 
turns into, a great change in how we deal with veterans across 
the board.
    We have heard comments from other Committee Members this 
morning about the inadequacy of the various pieces of the 
Federal sector and how it interacts with veterans. I can't name 
a single area of the Federal sector where veterans are 
advantaged because of their veteran status. I can think of 
countless areas where they are disadvantaged based on the fact 
that they served our country. That is shameful.
    So I want to congratulate this committee on this 
legislation and urge you to please pass this. I have been 
coming to this town for 20 years talking about this. I am 
getting a little past my prime as well. It is time that we 
enable these men and women, as we have done in the past, to do 
for themselves what only they can do best. Thank you and I 
would welcome any questions or comments.
    Mr. Bartlett. Thank you very much for your testimony, Mr. 
Elmore. It is not about time, it is past time that we did 
something. Thank you for your testimony.
    Without objection the testimony of all of our witnesses, 
their written testimony, will be made a part of the record. 
Thaw very much for summarizing. You will have ample opportunity 
during the question and answer period to amplify on your 
statement.
    [Mr. Elmore's statement may be found in the appendix.]
    Mr. Bartlett. Now, Mr. Charles Foster, president of SBC 
Telecommunications. Thank you for your joining us.

STATEMENT OF CHARLES FOSTER, PRESIDENT, SBC TELECOMMUNICATIONS, 
                        SAN ANTONIO, TX

    Mr. Foster. Thank you, Mr. Chairman and Members of the 
Committee for this opportunity to testify on the Veterans 
Entrepreneurship and Small Business Development Act of 1999. 
SBC is one of the leading telecommunications companies in the 
world. We have more than 130,000 employees. We have a market 
capitalization of more than $100 billion. We have interests in 
local long distance, wireless, and data services worldwide. Our 
subsidiaries include Southwestern Bell, Pacific Bell, Southern 
New England, and Cellular One. We are also one of the top 10 
Internet companies in the United States.
    SBC has valued the contributions of veterans for a long 
time. Just last month, in fact, SBC was recognized by the 
Association for Service-disabled Veterans, who you had heard 
from earlier, as America's leading company in promoting 
disabled veteran enterprises.
    SBC spends more than a billion dollars annually with minor- 

ity-, women-, and disabled-owned businesses, which is more than 
20 percent of all of the goods and services that we purchased 
last year. Our Pacific Bell subsidiary leads the industry with 
30 percent of our total purchasing going to diversity 
suppliers, and more than 40 million of that went to the 
disabled-veterans businesses.
    As a result of our experience, Mr. Chairman, I am pleased 
to speak here today on behalf of my company and to offer SBC's 
strongest support for this legislation. With the high tech 
nature of today's military, the average soldier, sailor, 
airman, marine or coast guardsman has far more marketable 
skills than their predecessors ever did. They are far more 
educated than their predecessors were.
    They represent an abundant pool of talent and expertise for 
companies both large and small. American businesses need their 
skills and talents more than ever. Yet there is no adequate 
vehicle in place to align the skills of the American veteran, 
and especially the disabled veteran, with the rapidly evolving 
needs of American business.
    The National Veterans Business Development Corporation 
proposed in this legislation will change that. Along with the 
other provisions of this bill, we believe that it stands to 
dramatically enhance opportunities for veterans and afford 
companies like SBC much greater access to the expertise that 
these veterans offer.
    Mr. Chairman, America has always had a sacred bond with its 
veterans, an unwritten pact that if you risk life and limb by 
going to war for America, then America has the duty to make 
sure that you have every opportunity to prosper from the peace. 
Through veterans programs, millions of Americans have been 
given a chance to get started on that path to prosperity.
    I might add, Mr. Chairman, I was one of them. I frankly 
would not be here speaking today without that support. When I 
left the Army as a corporal in the mid-1950s, I took advantage 
of the GI Bill which not only opened doors of opportunities for 
me but opened for millions of others who were in uniform.
    That same spirit is alive and well in this legislation. 
Like the GI Bill, it does far more than simply recognize and 
honor the contributions that veterans have made. It rewards 
them for their sacrifices in a very tangible way by giving them 
opportunities to contribute their skills and talents where they 
are needed the most.
    Disabled-veteran enterprises already add a great deal of 
value to SBC, and we are excited about the potential of this 
bill to encourage more of those veterans' businesses. We do 
have one concern, though, regarding procurement targets for 
DVBEs. SBC is, of course, not in a position to determine 
whether the 5 percent procurement goal outlined in the bill is 
a fair and reasonable target for the Federal Government. I can 
only speak for SBC.
    After a great deal of analysis and discussion of this 
issue, we have established an internal goal of 1\1/2\ per cent 
for the DVBE procurement. To be very candid, our studies in 
California show there would simply not be enough qualified 
firms out there in the beginning capable of filling a 5 percent 
target.
    That is simply the reality. Again, speaking only in terms 
of SBC's strategic sourcing requirements. Again, while the 5 
percent figure may be reasonable for other entities and perhaps 
the Federal Government, it is certainly well above what SBC 
could deliver on initially. And I suspect a good many other 
companies would feel the same way. Of course, with this 
legislation many more disabled veteran businesses will likely 
emerge and broaden the field of potential suppliers.
    I would like to finish today right back where I started by 
offering SBC's strong support for this outstanding legislation 
that would do much for America's veterans. Mr. Chairman, we can 
never adequately repay America's veterans, especially our 
disabled veterans, for the sacrifices they have made for this 
country. Contributions that were made in sweat and blood cannot 
be paid, repaid in dollars and cents. The only thing we can do 
is to do right by them. And doing right by them means making 
sure they and their families have every opportunity to live 
productive, meaningful lives. We believe this legislation will 
take us one step closer to delivering on that commitment while 
at the same time promoting our Nation's economic growth. Mr. 
Chairman, I thank you very much for this opportunity.
    Chairman Talent. Thank you, Mr. Foster. We appreciate very 
much your efforts and the efforts of SBC Communications on 
behalf of veterans and your patience in coming and waiting 
here.
    [Mr. Foster's statement may be found in the appendix.]
    Chairman Talent. I am sorry I was gone and I want to thank 
Mr. Bartlett for chairing the hearing. I have another markup 
going on at the same time. That is how the Congress works or 
doesn't work as the case may be. I am glad to be back. Mr. 
Steve White of Dover, New Hampshire, of the White & Company. 
Mr. White.

        STATEMENT OF STEVE WHITE, WHITE & CO., DOVER, NH

    Mr. White. Thank you very much for this opportunity to 
speak with you. After this morning, I am also glad to get a 
little closer to the ice water. It is a nice chance to be here. 
My background is--what brings me to here, I guess, is that I 
was a Vietnam combat vet. I was a banker. I even did a 3-year 
stint with the SBA in New Hampshire as a management assistance 
officer where I started three or four SCORE chapters.
    I started a business, a publishing business, that provided 
materials to help small businesses better manage themselves. I 
sold that and started another business where I work mainly with 
banks providing them with small business development programs. 
But my most rewarding experience was when I started and managed 
an entrepreneurial training for veterans in Manhattan under the 
guise of the veterans leadership program.
    This was a start-up situation, we had very limited funding, 
and were constantly begging for dollars to try to make things 
happen. We got some funding from the City of New York through a 
very creative program and also with the SBA in Washington 
providing some funding for this program which lasted for 3 
years. During that period of time, I learned a great deal about 
veterans and veterans issues and had an immense amount of 
support and met some great veteran business owners.
    They were very interested in supporting anything that we 
could do to help other veteran business owners and vets get 
started and better manage their business. This bill goes a long 
way to help support that same feeling. We hosted a number of 
networking events with veteran business owners which the banks 
such as Chase and Chemical and Citibank sponsored. Business 
cards were flying. People did business. The banks saw the 
benefit of this. It made my eyes open up as a marketing person 
to see that this is a real marketing opportunity.
    It is a real market niche. We saw vets that would do 
anything they could to help other people. At these networking 
events, you would have people say what can I do for you, as 
opposed to most networking events they would say, what can you 
do for me or buy my stuff. We came to call this an invisible 
quality among vets that we called the vet connection. I think 
that you will find, if you pass this legislation, by having it 
as a private group without Federal employees in the middle of 
it where veterans are managing this, the support will be 
overwhelming.
     I feel there is no problem at all in saying that this will 
be a self-sufficient and self-funding operation. Because of the 
microcosm of what we did in New York, basically you are looking 
at doing an expansion of this so I know it works. We did it, 
supported it. I have worked for years in trying to organize 
veterans into a veteran's business network which would be a 
nationwide association of veteran business owners.
    Banks across the country have told me of the interest in 
that from a market point of view. They can see this as a way of 
building a business. I would suggest that you don't beat 
yourselves up on what you haven't done for veterans in the past 
and think about this as an opportunity for an economic 
investment in a great bunch of people with over--whatever the 
numbers are, at least 4 million veteran business owners. That 
has got an awful lot of economic clout.
    The type of things that Mr. Foster is doing here is just an 
example of a company saying that they want to work with 
veterans, but they are also doing it for economic reasons. No 
reason not to. I was contacted during this time years ago by a 
group that I thought was a prank phone call, but it turned out 
to not be the case, asking me to help them do business planning 
training in Poland. I said, what is the funding? They said, 
well, it is called the Polish American Enterprise Fund.
    Congress had allocated $250 million because they thought it 
was going to be a real economic enterprise bill where they 
could train people, as it was becoming more democratized, to 
train people how to run their own businesses and work. I think 
that we are looking at $12 million for this veteran's 
enterprise fund possibly, we could call it. Maybe if we put it 
in those kinds of terms, if Congress in their wisdom saw that 
Poland was worth $250 million to help build a business, why 
don't we think about veterans and their enterprise? I think we 
will find that we get a far more economic impact out of those 
dollars.
    Thank you very much for allowing me to speak my little 
piece. But I am telling you that if you provide the money and 
let the veterans do it, it will work. Thank you.
    [Mr. White's statement may be found in the appendix.]
    Chairman Talent. I thank the witnesses. I am going to defer 
my questions due to the fact that we do have a markup after 
this, but I do want the Members to have a chance.
    First on the list on the Democratic side is Mr. Gonzalez.
    Mr. Gonzalez. No questions.
    Chairman Talent. Mr. Bartlett.
    Mr. Bartlett. Thank you, Mr. Chairman. If we had any doubts 
before this hearing as to the value of our legislation, those 
doubts have been thoroughly dispelled by the hearing. I want to 
thank all of our witnesses and thank you for holding the 
hearing. Let's hope that this moves very quickly through the 
Congress. Thank you.
    Chairman Talent. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman. Mr. Foster, let me just 
again commend you and your company for its strong record of 
involvement with minority- and women-owned businesses. You 
raised some concerns in relationship to the 5 percent goal. My 
question is, in your own company, have you found that advocacy 
and ombudsman type programs like the one that we are really 
talking about were effective in helping your company move to 
the point where it developed this strong record?
    I really do think that you have a strong--one of the 
strongest that I have actually seen. I have been involved with 
minority- and women-owned business development efforts for 
many, many years. I think that you have developed one of the 
more outstanding records in the country. Does this type group 
that this legislation really creates assist your company in 
developing its approach to these kinds of business entities?
    Mr. Foster. Congressman, one word. Absolutely.
    Mr. Davis. So then this legislation should assist other 
companies to do the same thing as it would relate to veterans 
and our effort to really assist veterans to move into the 
mainstream?
    Mr. Foster. Again, I can only speak for SBC, but the answer 
to your question is yes. It is good for our company and I think 
it is good for any other nature of business.
    Mr. Davis. I have no further questions, Mr. Chairman. Thank 
you very much.
    Chairman Talent. Mr. LoBiondo. Mrs. Napolitano.
    Ms. Napolitano. Thank you, Mr. Chairman. One of the 
questions that was put to the prior panel was do you see 
anything lacking in this piece of legislation that might help 
address any loop holes or anything besides the funding of this? 
If you heard me before, I think the funding is very inadequate, 
totally inadequate. But is there anything that the two or three 
of you felt might be included or could be included to help make 
this be a more viable bill for veterans?
    Mr. Elmore. If I might, there is a lot in here. Again, I 
think it puts it in the veteran's markets. If there are gaps in 
areas that we haven't addressed in the body of the legislation, 
I think the market will drive how we get to that down the road.
    I do have one concern, and I am not sure if it is 
legitimate concern or not. But to vest the appointing authority 
in just the President for the nine initial board members for 
the national corporation is a little troubling for me. It is so 
critical that we have the right people on that initial board of 
directors. I would prefer to see a strengthening that the 
Chairman of the Committees and the Ranking Members of those 
Committees play in that appointment.
    The way that it reads to me is there is a list submitted to 
the President, and the President picks someone from that list. 
I just hope that we don't pick people only for political 
purposes, that we, in fact, pick people who are there because 
they are grounded in this issue and who are a part of the 
process that got us it to this point and who bring a knowledge 
and passion. I think to quote a comment the Chairman made to me 
in private once, a savvy to this that is necessary to get this 
corporation off on the right foot.
    Ms. Napolitano. Would you suggest that these people be 
veterans involved in the issue?
    Mr. Elmore. I don't know veterans involved as much--I 
thought to myself on the plane as I came up here that I really 
look forward to appearing before this Committee in the future 
and talk only about small business issues.
    We should have been there a long time ago. So I think there 
are people in the private sector who none of us have identified 
at this point who might be wonderful assets for a board like 
that. So I don't know that everyone needs to be, but I think 
some need to come from the process that led to the creation of 
this legislative initiative.
    Ms. Napolitano. Thank you. One of the questions, and this 
is to Mr. Foster, in reducing the cap from 5 to 1.5, Mr. 
Foster, do you think--well, let me rephrase that.
    I see the point that you made on that. However, do you 
think that our agencies' inability to reach that, and I am 
talking about any Federal agency that puts out the contracting 
and procurement, that they may not have done enough outreach or 
they don't market it enough or don't put it out where it can be 
accessed by veterans?
    Mr. Foster. I can only speak with our own experience. The 
first thing we had to do was identify who the groups were that 
could produce the kinds of services or goods that we needed. We 
have been at this I think at least in Pacific Bell since 1993. 
We are exceeding the 1\1/2\ percent goal that we set for 
ourselves in California now.
    But in starting out in the other States like Texas, 
Oklahoma, and Missouri, and so forth, in the early years you 
would have trouble. We had trouble, identifying and certifying 
who these folks were that could do the kinds of things that we 
needed to have. I think 5 percent, once the program is in and 
established, you have got some years of outreach. You know 
where to go to, where the groups are, the veterans associations 
who can lead you to the business people that can do what you 
need--I don't think--I can't get too excited about 5 percent 
down the road, but I can get nervous about 5 percent in the 
early stages. We would hate to see legislation that mandated it 
that said, you will reach a 5 percent goal absolutely 
positively each year.
     That would be very difficult. It would probably hurt the 
purpose of the bill to begin with. But that is kind of where we 
are at. It has worked for us so far. Our goal is to get beyond 
the 1\1/2\.
    Ms. Napolitano. So you could see in the beginning a very 
low percentage and then an increase.
    Mr. Foster. I see in the beginning you get some kind of 
threshold. I am sensitive to what these folks like Mr. Lopez 
and others have been doing for the last 20 years, trying to get 
something through Congress. And the last thing I want to do is 
come up here and say something semi-negative that has the 
impact of saying, well, we ought not to do it exactly that way.
    Ms. Napolitano. You testified about one point that is 
interesting, the certification. You said that you have trouble 
being able to get some of the veterans organizations----
    Mr. Foster. I said in the early stages in identifying who--
--
    Ms. Napolitano. What made that change?
    Mr. Foster. First of all, outreach. People knowing that our 
corporation was interested in doing business.
    Ms. Napolitano. You had your own program?
    Mr. Foster. We had our own program. We had people in place 
who went out and looked for--for example, in the minority 
business side, the women's business side getting much more 
outreach, getting with groups that spoke for these folks that 
could spread the word and network. And just go get out there 
and scratching the dirt until you can find all of the people 
that do all the kind of things that you want done. In fact, in 
some cases actually assisting individuals to go in business. We 
have done a lot of that. Given them training, provided them 
with--tell them where they could go to get the expertise to 
start a business.
    Ms. Napolitano. Thank you very much. You have answered my 
questions very well.
    Chairman Talent. Mrs. Kelly.
    Mrs. Kelly. I have no questions.
    Chairman Talent. Mrs. Christian-Christensen.
    Ms. Christian-Christensen. Thank you, Mr. Chairman. I don't 
have a question. I just wanted to say that I know from my own, 
the veterans in my own district, the frustration that you 
voiced, Mr. Elmore. And I believe you were with us last 
Congress when Chairman Bartlett and Chairman Talent held a 
hearing to review what SBA had been doing with regards to 
helping our veterans into getting into business and expanding 
our businesses. I just wanted to suggest that perhaps being 
here today should be a sign of hope in that we are moving ahead 
because now we have legislation that will specifically address 
some of the issues that had not been addressed before. I want 
to again just thank our Chairman for introducing that 
legislation.
    Chairman Talent. I thank the gentlelady for her comments. 
Mr. Thune.
    Mr. Thune. Thank you, Mr. Chairman. I don't have any 
questions either. I want to credit the panelists for their 
excellent testimony and for the work that they do and to say 
that I think we have a powerful resource in our veteran 
community; a tremendous amount of potential just waiting to 
contribute.
    I think this legislation rightfully gives that priority the 
attention that it deserves and highlights the need for economic 
development in our veteran community. Certainly these are 
individuals who understand the work ethic and I think we just 
need to open the door and provide them access to the resources 
that will allow them to tap the potential; this is something 
that I think is very much in our country's best interest. I 
believe that we have a responsibility and obligation as well to 
people who have contributed a great deal and sacrificed so much 
for our country. I just urge that we move the legislation 
forward. Thank you.
    Chairman Talent. Mrs. Jones.
    Ms. Tubbs Jones. Mr. Chairman, I am going to be brief with 
my inquiry. But having had some experience in dealing with 
equal employment opportunity issues both in the veterans area 
but also with regard to women and minorities, I think it is 
something good to be said that you speakers here today are 
talking about issues of affirmative action for veterans. I 
would ask you to have the same, be the same spokesperson for 
affirmative action for minorities and women as well because it 
is good for the Nation when veterans, minorities, women, all 
have an opportunity at the economic pie and that we don't get 
jealous and say that there is not enough of this pie for all of 
us to be at the table to deal with the issues.
    I congratulate you and celebrate you for being here at the 
table. But when it comes time to talk about minorities and 
women as well, I am looking for you at this table as well. 
Thank you, Mr. Chairman.
    Chairman Talent. Ms. Millender-McDonald.
    Ms. Millender-McDonald. Thank you so much, Mr. Chairman. I 
commend you for bringing this legislation to us. It is long 
overdue. I would like to commend all of the participants this 
morning and certainly commend Mr. Foster for your sensitivity 
with reference to providing the type of entrances for minority- 
and women-owned businesses. Certainly we recognize that women-
owned businesses are the fastest growing businesses in this 
country and indeed minority businesses as well.
    They need that type of handout and handup from those of you 
who are able to do that. We thank you all for your sensitivity 
to minority businesses and women-owned businesses. I would like 
to associate myself with Ms. Tubbs-Jones comments as well.
    Mr. Chairman, I would like to thank you again. I would just 
like to know what is the make-up of the board of directors and 
who would determine the membership?
    Chairman Talent. I thank the gentlelady for raising that. 
Mr. Elmore raised that point also. There will be nine members 
of the board of directors. They will serve 6 year terms. The 
President appoints one and then the other eight are appointed 
from lists submitted by the Chairman and Ranking Members of the 
House and Senate Veterans and Small Business Committees. I 
think this corporation is going to be tremendously successful. 
It is going to go on and I think be self-sustaining.
    We wanted it to be certain that it was absolutely 
bipartisan so there is an equal number of appointees or lists 
submitted by Ranking Members and Chairmen regardless of who 
controls the Congress in future years. Then the President has 
the appointment on his own. I would say to Mr. Elmore, we 
thought that was the best compromise. The lists--I am certain 
that Ms. Velazquez also says this. I am going to submit if this 
bill passes and if I am the Chairman when it passes, I will 
submit lists of people all of whom have strong records of 
experience with veterans issues. I imagine they will be 
veterans. I can't imagine me submitting--I can't speak for Ms. 
Velazquez, but I am certain she will do also. Look at people 
like Mr. Stump and Mr. Evans in the Senate. I have confidence 
we will have a strong board.
    Ms. Millender-McDonald. Thank you, Mr. Chairman. I hope you 
don't leave, Governor, before this bill is passed.
    Chairman Talent. I thank the gentlelady.
    Mr. Elmore. If I might, since I am from Missouri, I hope he 
becomes our governor, but I want the bill passed first.
    Chairman Talent. I am overwhelmed. Mr. Udall is next. No 
questions? Mr. Phelps. Do you have any questions?
    Mr. Phelps. Thank you, Mr. Chairman. Just briefly. First, 
thank you for holding the hearing. The information that has 
been provided is very helpful as a new Member. I just want to 
echo one concern that I know will be handled very well by the 
veteran's corporation. We get hit a lot of times on the 
duplications. I am sure between SBA and the veterans centers 
will be sensitive about that to avoid duplications, but outside 
of that I hear nothing but good and I think it is something 
that we all should be supporting. Thank you.
    Chairman Talent. I thank Mr. Phelps, and we look forward to 
his very important amendment on a portion of this bill that I 
am certainly enthusiastic about and I am looking forward to 
that--his amendment. Mr. Pascrell.
    Mr. Pascrell. No questions, thank you, Mr. Chairman.
    Chairman Talent. Mr. Moore.
    Mr. Moore. I have no questions, Mr. Chairman. Thank you for 
having this.
    Chairman Talent. I want to thank the witnesses. I don't 
want the witnesses to believe that the lack of questions is 
because of a lack of interest. I think the Members are wanting 
to get to this markup. I could have asked more questions. I am 
not going to do that. I thank all three of you for your 
presence and your work on behalf of the veteran's community. 
With that, I will adjourn this hearing.


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 59748.001

[GRAPHIC] [TIFF OMITTED] 59748.002

[GRAPHIC] [TIFF OMITTED] 59748.003

[GRAPHIC] [TIFF OMITTED] 59748.004

[GRAPHIC] [TIFF OMITTED] 59748.005

[GRAPHIC] [TIFF OMITTED] 59748.006

[GRAPHIC] [TIFF OMITTED] 59748.007

[GRAPHIC] [TIFF OMITTED] 59748.008

[GRAPHIC] [TIFF OMITTED] 59748.009

[GRAPHIC] [TIFF OMITTED] 59748.010

[GRAPHIC] [TIFF OMITTED] 59748.011

[GRAPHIC] [TIFF OMITTED] 59748.012

[GRAPHIC] [TIFF OMITTED] 59748.013

[GRAPHIC] [TIFF OMITTED] 59748.014

[GRAPHIC] [TIFF OMITTED] 59748.015

[GRAPHIC] [TIFF OMITTED] 59748.016

[GRAPHIC] [TIFF OMITTED] 59748.017

[GRAPHIC] [TIFF OMITTED] 59748.018

[GRAPHIC] [TIFF OMITTED] 59748.019

[GRAPHIC] [TIFF OMITTED] 59748.020

[GRAPHIC] [TIFF OMITTED] 59748.021

[GRAPHIC] [TIFF OMITTED] 59748.022

[GRAPHIC] [TIFF OMITTED] 59748.023

[GRAPHIC] [TIFF OMITTED] 59748.024

[GRAPHIC] [TIFF OMITTED] 59748.025

[GRAPHIC] [TIFF OMITTED] 59748.026

[GRAPHIC] [TIFF OMITTED] 59748.027

[GRAPHIC] [TIFF OMITTED] 59748.028

[GRAPHIC] [TIFF OMITTED] 59748.029

[GRAPHIC] [TIFF OMITTED] 59748.030

[GRAPHIC] [TIFF OMITTED] 59748.031

[GRAPHIC] [TIFF OMITTED] 59748.032

[GRAPHIC] [TIFF OMITTED] 59748.033

[GRAPHIC] [TIFF OMITTED] 59748.034

[GRAPHIC] [TIFF OMITTED] 59748.035

[GRAPHIC] [TIFF OMITTED] 59748.036

[GRAPHIC] [TIFF OMITTED] 59748.037

[GRAPHIC] [TIFF OMITTED] 59748.038

[GRAPHIC] [TIFF OMITTED] 59748.039

[GRAPHIC] [TIFF OMITTED] 59748.040

[GRAPHIC] [TIFF OMITTED] 59748.041

[GRAPHIC] [TIFF OMITTED] 59748.042

[GRAPHIC] [TIFF OMITTED] 59748.043

[GRAPHIC] [TIFF OMITTED] 59748.044

[GRAPHIC] [TIFF OMITTED] 59748.045

[GRAPHIC] [TIFF OMITTED] 59748.046

[GRAPHIC] [TIFF OMITTED] 59748.047

[GRAPHIC] [TIFF OMITTED] 59748.048

[GRAPHIC] [TIFF OMITTED] 59748.049

[GRAPHIC] [TIFF OMITTED] 59748.050

[GRAPHIC] [TIFF OMITTED] 59748.051

[GRAPHIC] [TIFF OMITTED] 59748.052

[GRAPHIC] [TIFF OMITTED] 59748.053

[GRAPHIC] [TIFF OMITTED] 59748.054

[GRAPHIC] [TIFF OMITTED] 59748.055

[GRAPHIC] [TIFF OMITTED] 59748.056

[GRAPHIC] [TIFF OMITTED] 59748.057

[GRAPHIC] [TIFF OMITTED] 59748.058

[GRAPHIC] [TIFF OMITTED] 59748.059

[GRAPHIC] [TIFF OMITTED] 59748.060

[GRAPHIC] [TIFF OMITTED] 59748.061

[GRAPHIC] [TIFF OMITTED] 59748.062

[GRAPHIC] [TIFF OMITTED] 59748.063

[GRAPHIC] [TIFF OMITTED] 59748.064

[GRAPHIC] [TIFF OMITTED] 59748.065

[GRAPHIC] [TIFF OMITTED] 59748.066

[GRAPHIC] [TIFF OMITTED] 59748.067

[GRAPHIC] [TIFF OMITTED] 59748.068

[GRAPHIC] [TIFF OMITTED] 59748.069

[GRAPHIC] [TIFF OMITTED] 59748.070

[GRAPHIC] [TIFF OMITTED] 59748.071

[GRAPHIC] [TIFF OMITTED] 59748.072

[GRAPHIC] [TIFF OMITTED] 59748.073

[GRAPHIC] [TIFF OMITTED] 59748.074

[GRAPHIC] [TIFF OMITTED] 59748.075

[GRAPHIC] [TIFF OMITTED] 59748.076

[GRAPHIC] [TIFF OMITTED] 59748.077

[GRAPHIC] [TIFF OMITTED] 59748.078

[GRAPHIC] [TIFF OMITTED] 59748.079

[GRAPHIC] [TIFF OMITTED] 59748.080

[GRAPHIC] [TIFF OMITTED] 59748.081

[GRAPHIC] [TIFF OMITTED] 59748.082

[GRAPHIC] [TIFF OMITTED] 59748.083

[GRAPHIC] [TIFF OMITTED] 59748.084

[GRAPHIC] [TIFF OMITTED] 59748.085

[GRAPHIC] [TIFF OMITTED] 59748.086

[GRAPHIC] [TIFF OMITTED] 59748.087

[GRAPHIC] [TIFF OMITTED] 59748.088

[GRAPHIC] [TIFF OMITTED] 59748.089

[GRAPHIC] [TIFF OMITTED] 59748.090

[GRAPHIC] [TIFF OMITTED] 59748.091

[GRAPHIC] [TIFF OMITTED] 59748.092

[GRAPHIC] [TIFF OMITTED] 59748.093

[GRAPHIC] [TIFF OMITTED] 59748.094

[GRAPHIC] [TIFF OMITTED] 59748.095

[GRAPHIC] [TIFF OMITTED] 59748.096

[GRAPHIC] [TIFF OMITTED] 59748.097

[GRAPHIC] [TIFF OMITTED] 59748.098

[GRAPHIC] [TIFF OMITTED] 59748.099

[GRAPHIC] [TIFF OMITTED] 59748.100

[GRAPHIC] [TIFF OMITTED] 59748.101

[GRAPHIC] [TIFF OMITTED] 59748.102

[GRAPHIC] [TIFF OMITTED] 59748.103

[GRAPHIC] [TIFF OMITTED] 59748.104

[GRAPHIC] [TIFF OMITTED] 59748.105

[GRAPHIC] [TIFF OMITTED] 59748.106

[GRAPHIC] [TIFF OMITTED] 59748.107

[GRAPHIC] [TIFF OMITTED] 59748.108

[GRAPHIC] [TIFF OMITTED] 59748.109

[GRAPHIC] [TIFF OMITTED] 59748.110

[GRAPHIC] [TIFF OMITTED] 59748.111

[GRAPHIC] [TIFF OMITTED] 59748.112

[GRAPHIC] [TIFF OMITTED] 59748.113

[GRAPHIC] [TIFF OMITTED] 59748.114

[GRAPHIC] [TIFF OMITTED] 59748.115

[GRAPHIC] [TIFF OMITTED] 59748.116

[GRAPHIC] [TIFF OMITTED] 59748.117

[GRAPHIC] [TIFF OMITTED] 59748.118

[GRAPHIC] [TIFF OMITTED] 59748.119

[GRAPHIC] [TIFF OMITTED] 59748.120

[GRAPHIC] [TIFF OMITTED] 59748.121

[GRAPHIC] [TIFF OMITTED] 59748.122

[GRAPHIC] [TIFF OMITTED] 59748.123

[GRAPHIC] [TIFF OMITTED] 59748.124

[GRAPHIC] [TIFF OMITTED] 59748.125

[GRAPHIC] [TIFF OMITTED] 59748.126

[GRAPHIC] [TIFF OMITTED] 59748.127

[GRAPHIC] [TIFF OMITTED] 59748.128

[GRAPHIC] [TIFF OMITTED] 59748.129

[GRAPHIC] [TIFF OMITTED] 59748.130

[GRAPHIC] [TIFF OMITTED] 59748.131

[GRAPHIC] [TIFF OMITTED] 59748.132

[GRAPHIC] [TIFF OMITTED] 59748.133

[GRAPHIC] [TIFF OMITTED] 59748.134

[GRAPHIC] [TIFF OMITTED] 59748.135

[GRAPHIC] [TIFF OMITTED] 59748.136

[GRAPHIC] [TIFF OMITTED] 59748.137

[GRAPHIC] [TIFF OMITTED] 59748.138

[GRAPHIC] [TIFF OMITTED] 59748.139

[GRAPHIC] [TIFF OMITTED] 59748.140

[GRAPHIC] [TIFF OMITTED] 59748.141

[GRAPHIC] [TIFF OMITTED] 59748.142

[GRAPHIC] [TIFF OMITTED] 59748.143

[GRAPHIC] [TIFF OMITTED] 59748.144

[GRAPHIC] [TIFF OMITTED] 59748.145

[GRAPHIC] [TIFF OMITTED] 59748.146

[GRAPHIC] [TIFF OMITTED] 59748.147

[GRAPHIC] [TIFF OMITTED] 59748.148

[GRAPHIC] [TIFF OMITTED] 59748.149


</pre></body></html>
